                             NCUA 2008
                    FINANCIAL STATEMENT AUDITS
                                FOR
                             OPERATING FUND
                          SHARE INSURANCE FUND
                        CENTRAL LIQUIDITY FACILITY
                COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                 For the year ended December 31, 2008

        Audited Financial Statements             Audit Report Number

NCUA Operating Fund                                     OIG-10-05
National Credit Union Share Insurance Fund              OIG-10-06
Central Liquidity Facility                              OIG-10-07
Community Development Revolving Loan Fund               OIG-10-08




                             June 11, 2010




                           William A. DeSarno
                           Inspector General
                                  EXECUTIVE SUMMARY
PURPOSE AND SCOPE            The National Credit Union Administration (NCUA)
                             Office of Inspector General contracted with the
independent public accounting firm of Deloitte & Touche LLP to perform the
financial statement audits of the NCUA Operating Fund, the Share Insurance
Fund 1, the Central Liquidity Facility, and the Community Development Revolving
Loan Fund for the year ended December 31, 2008.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also considered the
internal control over financial reporting and tested compliance with laws and
regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with Deloitte &
Touche LLP in August 2006 to perform the financial statement audits mentioned
above. The contract was for 2006, with options for 2007 and 2008. The
Inspector General was the contracting officer for this contract.

AUDIT RESULTS        Deloitte & Touche LLP expressed unqualified opinions,
                     stating that the financial statements present fairly, in all
material respects, the financial position of the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Fund, at December 31, 2008, and the results of operations and
cash flows for the year then ended.

Although Deloitte & Touche LLP did not express an overall opinion of the Funds’
compliance with laws and regulations, their testing of compliance did not disclose
any instances of noncompliance.




1
  Deloitte is providing an opinion on the 2008 portion of the attached 2008/2009 comparative financial
statements for the Share Insurance Fund. Refer to OIG report OIG-10-10 for the 2009 opinion.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the
Years Ended December 31, 2008 and 2007, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                      1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2008 AND 2007:

 Balance Sheets                                                   2

 Statements of Revenues, Expenses, and Changes in Fund Balance    3

 Statements of Cash Flows                                         4

 Notes to Financial Statements                                   5–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                  10–11
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Operating
Fund (the “Fund”) as of December 31, 2008 and 2007, and the related statements of revenues, expenses,
and changes in fund balance, and cash flows for the years then ended. These financial statements are the
responsibility of the Fund’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Operating Fund as of December 31, 2008 and 2007, and the results
of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 17,
2009, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements, and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.




February 17, 2009
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2008 AND 2007
(Dollars in thousands)


                                                                             2008       2007
ASSETS

Cash and cash equivalents                                                  $ 21,592   $ 24,175

Due from National Credit Union Share Insurance Fund (Note 4)                   169        272

Employee advances                                                               91        143

Other accounts receivable (Note 5)                                             283        169

Prepaid expenses and other assets                                            4,173      1,799

Fixed assets — net of accumulated depreciation and amortization (Note 3)    33,399     34,213

TOTAL                                                                      $ 59,707   $ 60,771


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                          $ 4,063    $ 4,216
 Obligations under capital leases (Note 6)                                     300      1,246
 Accrued wages and benefits                                                  4,118      3,225
 Accrued annual leave                                                        8,907      8,575
 Accrued employee travel                                                         6          5
 Note payable to National Credit Union Share Insurance Fund (Note 4)        19,779     21,120

       Total liabilities                                                    37,173     38,387

COMMITMENTS AND CONTINGENCIES (Notes 9 and 10)

FUND BALANCE:
 Unappopriated                                                              21,534     21,384
 Appropriated (Note 11)                                                      1,000      1,000

       Total fund balance                                                   22,534     22,384

TOTAL                                                                      $ 59,707   $ 60,771


See notes to financial statements.




                                                  -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007
(Dollars in thousands)


                                                                2008       2007

REVENUES:
 Operating fees                                             $ 72,423     $ 63,961
 Interest                                                        773        2,213
 Other                                                           233          303

       Total revenues                                           73,429    66,477

EXPENSES (Note 4):
 Employee wages and benefits                                    56,030    51,902
 Travel                                                          7,505     6,802
 Rent, communications, and utilities                             1,908     1,905
 Contracted services                                             3,414     2,961
 Other                                                           4,422     4,568

       Total expenses                                           73,279    68,138

EXCESS OF
 REVENUES OVER EXPENSES (EXPENSES OVER REVENUES)                  150     (1,661)

FUND BALANCE — Beginning of year                                22,384    24,045

FUND BALANCE — End of year                                  $ 22,534     $ 22,384


See notes to financial statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007
(Dollars in thousands)


                                                                               2008          2007
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses (expenses over revenues)                 $     150     $ (1,661)
 Adjustments to reconcile excess of revenues over expenses
  (expenses over revenues) to net cash provided by operating activities:
  Depreciation and amortization                                                 3,181         3,312
  Provision for loss on disposal of employee residences held for resale           283           280
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                           103         (370)
    Employee advances                                                              52          759
    Other accounts receivable                                                    (114)           3
    Prepaid expenses                                                           (2,857)        (156)
  (Decrease) increase in liabilities:
    Accounts payable                                                            (153)          399
    Accrued wages and benefits                                                   893           654
    Accrued annual leave                                                         332           256
    Accrued employee travel                                                        1            (6)

       Net cash provided by operating activities                                1,871         3,470

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets                                                     (2,367)       (2,250)
 Purchases of employee residences held for sale                                (1,286)       (1,530)
 Proceeds from sale of employee residences held for resale                      1,486         1,290

       Net cash used in investing activities                                   (2,167)       (2,490)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of note payable                                                    (1,341)       (1,341)
 Principal payments under capital lease obligations                              (946)         (858)

       Net cash used in financing activities                                   (2,287)       (2,199)

NET DECREASE IN CASH AND CASH EQUIVALENTS                                      (2,583)       (1,219)
CASH AND CASH EQUIVALENTS — Beginning of year                                  24,175        25,394

CASH AND CASH EQUIVALENTS — End of year                                    $ 21,592      $ 24,175

SUPPLEMENTAL DISCLOSURE OF NONCASH ACTIVITIES —
 Acquisition of equipment under capital lease                              $     -       $      83

CASH PAYMENTS FOR INTEREST                                                 $     814     $ 1,095

See notes to financial statements.



                                                    -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


 1. ORGANIZATION AND PURPOSE

    The National Credit Union Administration Operating Fund (the “Fund”) was created by the Federal
    Credit Union Act of 1934. The Fund was established as a revolving fund in the United States Treasury
    under the management of the National Credit Union Administration (NCUA) Board for the purpose of
    providing administration and service to the Federal Credit Union System.

 2. SIGNIFICANT ACCOUNTING POLICIES

    Cash Equivalents — The Federal Credit Union Act permits the Fund to make investments in United
    States Government securities or securities guaranteed as to both principal and interest by the United
    States Government. Cash equivalents are highly liquid investments with original maturities of three
    months or less. All investments in 2008 and 2007 were cash equivalents and are stated at cost, which
    approximates fair value.

    Depreciation and Amortization — Building, furniture, equipment and leasehold improvements are
    recorded at cost. Capital leases are recorded at the present value of the future minimum lease payments.
    Depreciation and amortization are computed by the straight-line method over the estimated useful lives
    of the building, furniture, and equipment, and the shorter of the estimated useful life or lease term for
    leasehold improvements and capital leases. Estimated useful lives are forty years for the building and
    three to ten years for the furniture, equipment, and leasehold improvements.

    Operating Fees — The Fund assesses each federally chartered credit union an annual fee based on the
    credit union’s asset base as of the preceding December 31. The fee is designed to cover the costs of
    providing administration and service to the Federal Credit Union System. The Fund recognizes this
    operating fee revenue ratably over the year.

    Income Taxes — The Fund is exempt from Federal income taxes under Section 501(c) (1) of the
    Internal Revenue Code.

    Fair Value of Financial Instruments — The following methods and assumptions were used in
    estimating the fair value disclosures for financial instruments:

    Cash and cash equivalents, receivables from National Credit Union Share Insurance Fund (NCUSIF)
    and National Credit Union Administration Central Liquidity Facility (NCUA CLF), employee advances,
    other accounts receivable, accounts and notes payable to NCUSIF, and other accounts payable are
    recorded at book values, which approximate the respective fair values.

    Use of Estimates — The preparation of financial statements in conformity with accounting principles
    generally accepted in the United States of America requires management to make estimates and
    assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
    and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
    during the reporting period. Actual results could differ from management’s estimates.



                                                    -5-
3. FIXED ASSETS

  Fixed assets are comprised of the following at December 31, 2008 and 2007 (in thousands):

                                                                                2008            2007

    Office building and land                                                 $ 43,358      $ 43,358
    Furniture and equipment                                                    13,501        12,812
    Equipment under capital leases                                              2,782         2,846
    Assets under construction                                                   1,000           320

            Total                                                              60,641          59,336

    Less accumulated depreciation and amortization                            (27,242)        (25,123)

    Fixed assets — net                                                       $ 33,399      $ 34,213

  Accumulated amortization balances for equipment under capital leases as of December 31, 2008 and
  2007, were $2,523,000 and $1,718,000, respectively.

4. TRANSACTIONS WITH NCUSIF

  Certain administrative services are provided by the Fund to NCUSIF. The Fund charges NCUSIF for
  these services based upon an annual allocation factor approved by the NCUA Board and derived from a
  study of actual usage. The allocation factor to NCUSIF was 52% in 2008 and 53.3% in 2007. The cost
  of the services allocated to NCUSIF, which totaled approximately $ 79,385,000 and $77,766,000 for
  2008 and 2007, respectively, is reflected as a reduction of the corresponding expenses in the
  accompanying financial statements.

  In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year secured term
  note with NCUSIF. The monies were drawn as needed to fund the costs of constructing a building in
  1993. Interest costs incurred were approximately $807,000 and $967,000 for 2008 and 2007,
  respectively. The note payable balances at December 31, 2008 and 2007, were approximately
  $19,779,000 and $21,120,000, respectively.

  The above note requires principal repayments at December 31, 2008, as follows (in thousands):

    Years Ending                                                                               Secured
    December 31                                                                               Term Note

    2009                                                                                      $ 1,341
    2010                                                                                        1,341
    2011                                                                                        1,341
    2012                                                                                        1,341
    2013                                                                                        1,341
    Thereafter                                                                                 13,074

    Total                                                                                     $ 19,779




                                                -6-
  The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
  interest rates during 2008 and 2007, were 3.95% and 4.45%, respectively. The interest rates at
  December 31, 2008 and 2007, were 3.49% and 4.39%, respectively.

5. TRANSACTIONS WITH NCUA CLF

  Certain administrative services are provided by the Fund to NCUA CLF. The Fund charges NCUA CLF
  for these services based upon rates approved by the NCUA Board. The costs of the services provided to
  NCUA CLF were $259,000 and $240,000 for 2008 and 2007, respectively, and are reflected as a
  reduction of the corresponding expenses in the accompanying financial statements.

  Other accounts receivable include approximately $110,000 and $103,000 of amounts due from
  NCUA CLF as of December 31, 2008 and 2007, respectively.

6. LEASE COMMITMENTS

  Description of Leasing Agreements — The Fund has entered into a number of lease agreements with
  vendors for the rental of office space, as well as the lease of office equipment that includes laptops,
  printers, monitors, and copiers.

  Operating Leases — The Fund leases office space under lease agreements that expire through 2014.
  Office rental charges amounted to approximately $922,700 and $741,500 of which approximately
  $479,800 and $395,200 was reimbursed by NCUSIF for 2008 and 2007, respectively.

  Capital Leases — The Fund leases equipment under lease agreements that expire through 2012.

  The future minimum lease payments as of December 31, 2008, are as follows (in thousands):

    Years Ending                                                                       Operating     Capital
    December 31                                                                         Leases       Leases

    2009                                                                               $   756       $ 258
    2010                                                                                   479          18
    2011                                                                                   487          18
    2012                                                                                   479           8
    2013                                                                                   316
    Thereafter                                                                              79

    Total                                                                              $ 2,596         302

    Less imputed interest                                                                                   (2)

    Present value of minimum lease payments                                                          $ 300


  Based on the allocation factor approved by the NCUA Board for 2008, NCUSIF will reimburse the Fund
  for approximately 53.8% of the future operating lease payments.




                                                 -7-
7. RETIREMENT PLANS

   The employees of the Fund are participants in the Civil Service Retirement and Disability Fund, which
   includes the Federal Employees’ Retirement System (FERS). Both plans are defined benefit retirement
   plans covering all of the employees of the Fund. FERS is comprised of a Social Security Benefits Plan, a
   Basic Benefits Plan, and a Savings Plan. Contributions to the plans are based on a percentage of
   employees’ gross pay. Under the Savings Plan, employees can also elect additional contributions,
   subject to Internal Revenue Service (IRS) limitations, and the Fund will match up to 5% of the
   employees’ gross pay. In 2008 and 2007, the Fund’s contributions to the plans were approximately
   $12,768,000 and $11,947,000, respectively, of which approximately $6,639,000 and $6,368,000,
   respectively, were reimbursed by NCUSIF.

   The Fund does not account for the assets of the above plans and does not have actuarial data with respect
   to accumulated plan benefits or the unfunded liability relative to eligible employees. These amounts are
   reported by the U.S. Office of Personnel Management for the Civil Service Retirement and Disability
   Fund and are not allocated to individual employers.

8. DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

   The carrying amount and the estimated fair value of the Fund’s financial instruments are as follows
   (in thousands):

                                                          December 31, 2008             December 31, 2007
                                                         Carrying      Fair            Carrying      Fair
                                                         Amount      Value             Amount      Value

     Cash and cash equivalents                           $ 21,592     $ 21,592        $ 24,175       $ 24,175
     Due from NCUSIF                                          169          169             272            272
     Employee advances                                         91           91             143            143
     Other accounts receivable                                283          283             169            169
     Accounts payable                                       4,063        4,063           4,216          4,216
     Obligation under capital leases                          300          300           1,246          1,246
     Note payable to NCUSIF                                19,779       19,779          21,120         21,120



9. CONTINGENCIES

   The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
   opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
   material to the Fund’s financial position.

10. PURCHASE COMMITMENTS

   The Fund has entered into a new three-year agreement to lease laptops and other computer equipment.
   Payments will commence in April 2009 and will be made quarterly throughout the life of the lease. The
   total amount of payments under the lease will be approximately $3,145,000, of which approximately
   $2,413,000 will be paid by the Fund and remaining $732,000 will be paid by NCUSIF.

   In addition, the Fund has entered into an agreement with the Department of Transportation for the
   implementation and hosting of a new financial system. The project has a budget in the amount of



                                                   -8-
   $5,000,000 for one time implementation and licensing costs, of which $2,400,000 was paid in 2008.
   Annual hosting costs will be approximately $950,000 starting in 2010.

11. RETAINED EARNINGS APPROPRIATION

   In 2006, the NCUA Board established an appropriation of the Fund’s fund balance in an effort to more
   transparently disclose and communicate to stakeholders earnings that are needed for major projects that
   cannot be accrued or that do not warrant inclusion in the annual operating expense budget. The initial
   appropriation of $1,000,000 is for repairs and maintenance on NCUA’s Alexandria headquarters
   building. In 2008, this amount did not change.

                                              ******




                                                  -9-
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Operating Fund
(the “Fund”), as of and for the year ended December 31, 2008, and have issued our report thereon dated
February 17, 2009. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the Fund’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
Fund’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or a combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
presented or detected by the entity’s internal control.

Our consideration of the internal control over financial reporting was for the limited purpose described in
the first paragraph of this section and would not necessarily identify all deficiencies in internal control
that might be significant deficiencies or material weaknesses. We did not identify any deficiencies in
internal control over financial reporting that we consider to be material weaknesses as defined above.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We noted certain matters that we have reported to the management of the Fund in a separate letter dated
February 17, 2009.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Operating Fund and is not intended to be and should not be used by anyone other than these specified
parties.




February 17, 2009




                                                  - 11 -
National Credit Union
Share Insurance Fund
Financial Statements as of and for the Years Ended
December 31, 2009 and 2008, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                             Page

 INDEPENDENT AUDITORS’ REPORTS ON FINANCIAL STATEMENTS       1-2

 FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
   DECEMBER 31, 2009 AND 2008

  Balance Sheets                                              3

  Statements of Operations                                    4

  Statements of Changes in Fund Balance                       5

  Statements of Cash Flows                                    6

  Notes to Financial Statements                              7-21

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING WITH FINDINGS AND RESPONSE - 2009

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND
OTHER MATTERS - 2009

INDEPENDENT AUDITORS’ REPORTS ON INTERNAL CONTROL OVER
FINANCIAL REPORTING ON COMPLIANCE AND OTHER MATTERS - 2008

SCHEDULE OF FINDINGS AND RESPONSES - 2008
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2009, and the related statements of operations, changes in fund balance, and
cash flows for the year then ended (hereinafter referred to as “financial statements”). These financial
statements are the responsibility of the NCUSIF’s management. Our responsibility is to express an opinion
on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the NCUSIF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the 2009 financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Share Insurance Fund as of December 31, 2009, and the
results of its operations and its cash flows for the year then ended in conformity with U.S. generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated June 11, 2010,
on our consideration of the NCUSIF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audit.




June 11, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INDEPENDENT AUDITORS’ REPORT

To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Share Insurance Fund
(NCUSIF) as of December 31, 2008, and the related statements of operations, changes in fund balance,
and of cash flows for the year then ended. These financial statements are the responsibility of NCUSIF’s
management. Our responsibility is to express an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of NCUSIF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2008, and the results of its
operations and its cash flows for the year then ended in conformity with accounting principles generally
accepted in the United States of America.

As discussed in Note 8 to the financial statements, effective June 18, 2009, NCUSIF legally transferred
certain obligations to a newly formed entity, the Temporary Corporate Credit Union Stabilization Fund
(TCCUSF). As a result, effective with that date, NCUSIF was no longer required to consolidate certain
corporate credit unions in accordance with Financial Accounting Standards Board (FASB) Accounting
Standards Codification (ASC) 810, Consolidation (formerly, FASB Interpretation No. 46 (R),
Consolidation of Variable Interest Entities). Because NCUSIF and TCCUSF are under common control,
this has resulted in a change in reporting entity in accordance with FASB ASC 250, Accounting Changes
and Error Corrections, which change has been applied retrospectively.

In accordance with Government Auditing Standards, we have also issued our report dated June 10, 2010,
on our consideration of NCUSIF’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts, and grant agreements and other matters. The
purpose of that report is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing and not to provide an opinion on the internal control over
financial reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audits.




June 10, 2010


                                                     -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                          2009           2008

ASSETS

Cash and cash equivalents (Note 4)                                $      817,439 $   3,837,344
Investments (Note 5)                                                   8,698,313     4,243,313
Contributions receivable from insured credit unions                       17,614           992
Note receivable due from NCUA Operating Fund (Note 7)                     18,438        19,779
Premium receivable                                                        12,901           -
Loans receivable (Note 7)                                             10,000,000           -
Assets acquired in assistance to insured credit unions                   204,525       103,175
Fixed assets — net of accumulated depreciation and amortization                58           80
Accrued interest receivable                                               72,356        39,848
Accrued fee receivable                                                       -           1,929
   Total assets                                                   $   19,841,644 $   8,246,460

LIABILITIES AND FUND BALANCE

LIABILITIES
Cash assistance liability                                         $        5,393 $      2,000
Amounts due to insured shareholders of liquidated credit unions           12,192       10,356
Due to NCUA Operating Fund (Note 12)                                       2,257          169
Reserve for losses (Note 9)                                              758,741      278,343
Interest payable                                                           1,302          -
Obligations under capital lease                                              -             89
Note payable (Note 12)                                                10,000,000          -
Accounts payable                                                          27,474           56
    Total liabilities                                                 10,807,359      291,013

Commitments and Contingencies (Note 14)

FUND BALANCE
Insurance fund balance                                                 1,889,798     1,700,003
Insured credit unions’ accumulated contributions (Note 11)             7,067,139     5,977,106
Accumulated other comprehensive income                                    77,348       278,338
   Total fund balance                                                  9,034,285     7,955,447
   Total liabilities and fund balance                             $   19,841,644 $   8,246,460

See accompanying Notes to the Financial Statements




                                                      -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                 2009        2008

REVENUES

Premium income (Note 10)                                   $   727,466 $       -
Investment income                                              188,774     390,922
Interest on note receivable due from related party                 509         807
Interest on loans                                               32,791       1,178
Other income                                                        19       2,752
        Total revenues                                         949,559     395,659

EXPENSES

Employee wages and benefits                                     69,966      60,699
Travel                                                          10,161       8,130
Rent, communications, and utilities                              2,255       2,067
Contracted services                                              4,646       3,698
Interest expense                                                32,791         -
Other                                                           14,805       6,922
Provision for insurance losses                                 625,140     290,354
        Total expenses                                         759,764     371,870

EXCESS OF REVENUES OVER EXPENSES                           $   189,795 $    23,789

See accompanying Notes to the Financial Statements




                                                     -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                        Insured        Accumulated
                                                        Insurance    Credit Unions’       Other
                                                          Fund        Accumulated     Comprehensive    Comprehensive
                                                         Balance     Contributions       Income           Income           Total

BALANCE — January 1, 2008                              $ 1,676,214   $    5,585,256   $         -      $         -      $ 7,261,470
                                                                                                                 -
 Contributions from insured credit unions                      -           391,850              -                           391,850

 Excess of revenues over expenses                           23,789              -               -             23,789         23,789

 Other comprehensive income - changes in
   unrealized gain on available for sale investments           -                -           278,338          278,338        278,338
 Comprehensive income                                          -                -               -      $     302,127
BALANCE — December 31, 2008                              1,700,003        5,977,106         278,338    $         -        7,955,447

 Contributions from insured credit unions                      -          1,090,033             -                -        1,090,033

 Excess of revenues over expenses                          189,795              -               -            189,795        189,795

 Other comprehensive income - changes in
   unrealized gain on available for sale investments           -                -          (200,990)        (200,990)      (200,990)
 Comprehensive loss                                            -                -               -      $     (11,195)
BALANCE — December 31, 2009                            $ 1,889,798   $    7,067,139   $      77,348                     $ 9,034,285



See accompanying Notes to the Financial Statements




                                                               -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008
(Dollars in thousands)

                                                                                      2009             2008

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                                $     189,795     $      23,789
 Adjustments to reconcile excess of revenues over expenses to cash provided by
  operating activities:
  Depreciation and amortization                                                              82              323
  Amortization of premiums and discounts on investments — net                            78,916           44,465
  Provision for insurance losses                                                        625,140          290,354
  Insurance losses paid, net                                                           (144,742)        (227,791)
  (Increase) decrease in assets:
   Premium receivable                                                                   (12,901)             -
   Assets acquired in assistance to insured credit unions — net                        (101,350)         (37,291)
   Accrued interest receivable                                                          (32,508)          20,203
   Accrued fee receivable                                                                 1,929           (1,929)
  Increase (decrease) in liabilities:
   Cash assistance liability                                                             3,393             2,000
   Amounts due to insured shareholders of liquidated credit unions                       1,836             5,463
   Due to NCUA Operating Fund                                                            2,088              (103)
   Interest payable                                                                      1,302               -
   Due to credit unions                                                                    -             (30,853)
   Accounts payable                                                                     27,418                21
      Net cash provided by operating activities                                        640,398            88,651

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of investments                                                            (6,095,297)       (2,335,125)
 Proceeds from maturities on investments                                              1,360,391         1,800,000
 Proceeds from sales of investments                                                         -           2,500,000
 Capital expenditures                                                                       (60)              -
 Collections on note receivable — NCUA Operating Fund                                     1,341             1,341
      Net cash (used in) provided by investing activities                            (4,733,625)        1,966,216

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                             1,073,411          391,012
 Principal payments under capital lease obligation                                          (89)            (351)
       Net cash provided by financing activities                                      1,073,322          390,661

NET (DECREASE) INCREASE IN CASH AND CASH EQUIVALENTS                                 (3,019,905)       2,445,528

CASH AND CASH EQUIVALENTS — Beginning of year                                         3,837,344        1,391,816

CASH AND CASH EQUIVALENTS — End of year                                          $     817,439     $   3,837,344


CASH PAYMENTS FOR INTEREST                                                       $           -     $              7

NON-CASH INVESTING AND FINANCING ACTIVITIES:
 Loans to Corporate Credit Unions (CCUs) financed through CLF borrowings         $   10,000,000    $          -



See accompanying Notes to the Financial Statements.




                                                             -6-
 NATIONAL CREDIT UNION SHARE INSURANCE FUND
 NOTES TO FINANCIAL STATEMENTS
 AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2009 AND 2008


1. ORGANIZATION AND PURPOSE

     OVERVIEW OF THE NATIONAL CREDIT UNION SHARE INSURANCE FUND

     The National Credit Union Share Insurance Fund (“NCUSIF”) was created by Title II of the Federal
     Credit Union Act, 12 U.S.C. 1781 et seq., as amended by section 136(b) of the Emergency
     Economic Stabilization Act of 2008, 12 U.S.C. 5241(b), and the Helping Families Save Their
     Homes Act of 2009, §204, Pub. L. No. 111-22, 123 Stat. 1632, 1648 (2009) (‘Helping Families
     Act’). The NCUSIF was established as a revolving fund in the United States Treasury, under the
     Board of Directors of the National Credit Union Administration (NCUA), for the purpose of
     insuring member share deposits in all federal credit unions and for qualifying state credit unions
     requesting insurance.

     The NCUA exercises direct supervisory authority over federal credit unions and coordinates
     required supervisory involvement with the state chartering authority for state chartered credit unions
     insured by the NCUSIF. Insured credit unions are required to report certain financial and statistical
     information to NCUA on a quarterly basis, and are subject to periodic examination by the NCUA.
     Information derived through the supervisory and examination process provides the NCUSIF with the
     ability to identify credit unions experiencing financial difficulties that may require assistance from
     the NCUSIF.

     Assistance may be in the form of a waiver of statutory reserve requirements, a guarantee account,
     cash assistance, or other such form. In some cases, a merger partner for the credit union may be
     sought. Mergers between financially troubled credit unions and stronger credit unions may also
     require NCUSIF assistance. Merger assistance may be in the form of cash assistance, purchase of
     certain assets by the NCUSIF, and/or guarantees of the values of certain assets (primarily loans).
     When a credit union is no longer able to continue operating and the merger and assistance
     alternatives are not practical, the NCUSIF may liquidate the credit union, pay members’ shares up to
     the maximum insured amount, and dispose of its assets.

     A change in reporting entity, related to certain variable interest entities, has been retrospectively
     presented herein. With this change in reporting entity, the NCUSIF was no longer required to
     consolidate any corporate credit unions.

     Recent Legislation — The Helping Families Act increased deposit insurance coverage to $250,000
     through December 31, 2013, and created the Temporary Corporate Credit Union Stabilization Fund
     (“TCCUSF”), 12 U.S.C. 5241(b), 1790e. The purposes of the TCCUSF are to accrue the losses of
     the Corporate Credit Union (“CCU”) system, and over time, to assess the entire credit union system
     for the recovery of such losses. The act does not permit recovery of losses ahead of funds advanced
     to pay such losses; instead, funds to pay losses are provided through borrowings from the U.S.
     Treasury. NCUA has 28 corporate credit unions which provide liquidity, investment, and payment
     services to natural person credit unions. On June 18, 2009, the NCUA Board approved actions to
     legally obligate the TCCUSF for the costs of stabilizing the CCU system. These actions included
     legally obligating the TCCUSF as the issuer and holder of a $1 billion capital note with U.S. Central
     Federal Credit Union (“USC”), and for all liabilities arising from the Temporary Corporate Credit


                                                     -7-
    Union Share Guarantee Program (“TCCUSGP”) and the Temporary Corporate Credit Union
    Liability Guarantee Program (“TCCULGP”). The TCCUSGP guarantees the entire share amount
    member credit unions have on deposit with CCUs. The TCCULGP guarantees timely payment of
    principal and interest on certain unsecured debt of participating CCUs.

    Sources of Funding — Deposits insured by NCUSIF are backed by the full faith and credit of the
    U.S. Government. NCUSIF has multiple sources of funding. Each insured credit union is required to
    deposit and maintain in the NCUSIF one percent of its insured shares. The NCUA Board may also
    assess premiums to all federally insured credit unions as provided by the Federal Credit Union Act.

    In addition, the NCUSIF has $6 billion in borrowing authority, shared with the TCCUSF, from the
    U.S. Treasury for use in unforeseen emergencies. This borrowing may be temporarily increased to
    an amount not to exceed $30 billion.

    Under the Federal Credit Union Act, NCUSIF also has the ability to borrow from the NCUA Central
    Liquidity Facility (“CLF”). If in the judgment of the NCUA Board, a loan to the NCUSIF is
    required at any time for carrying out the purposes of its programs, the NCUSIF is authorized to
    borrow from the CLF, having access to CLF’s unused borrowing authority.

    Significant Developments — On March 20, 2009, the NCUSIF made two $5 billion liquidity
    stabilization loans to USC and Western Corporate Federal Credit Union (“WesCorp”), respectively,
    with funds borrowed from the CLF. These advances are due to the CLF on December 21, 2010, as
    discussed further below.

2. SIGNIFICANT ACCOUNTING POLICIES

    Basis of Presentation — The NCUSIF has historically prepared its financial statements in
    accordance with accounting principles generally accepted in the United States of America
    (“GAAP”), based on standards issued by the Financial Accounting Standards Board (“FASB”), the
    private sector standards setting body. In October 1999, the American Institute of Certified Public
    Accountants (AICPA) designated the Federal Accounting Standards Advisory Board (“FASAB”) as
    the standards setting body for the establishment of accounting principles generally accepted in the
    United States of America with respect to the financial statements of Federal government entities.
    The FASAB has indicated that the preparation of financial statements based upon standards
    promulgated by the FASB may be regarded as being in accordance with GAAP for those Federal
    entities, which includes the NCUSIF, that have issued financial statements based upon FASB
    standards in the past. To be consistent with historical reporting, the NCUSIF’s financial statements
    are presented in accordance with accounting and financial reporting standards promulgated by the
    FASB. These statements include the accounts of the NCUSIF and are consolidated as necessary with
    any variable interest entities for which the NCUSIF is deemed to be the primary beneficiary. As
    explained herein, no entities were consolidated in either 2009 or 2008.

    Basis of Accounting — The financial statements are presented in accordance with the accrual basis
    of accounting. As such, the NCUSIF recognizes income when earned and expenses when incurred.
    The NCUSIF recognizes loans upon issuance and related repayments when received. The NCUSIF
    investment transactions are recognized on trade date. The NCUSIF recognizes borrowings when
    received and repayments when made. In addition, the NCUSIF recognizes interest on loans, interest
    on investments, and revenue from premium assessments when earned and recognizes interest on
    borrowings and expenses when incurred.




                                                 -8-
Assets Acquired in Assistance to Insured Credit Unions — The NCUSIF acquires the assets of
liquidating credit unions pending their ultimate disposition. To assist in the merger of credit unions,
the NCUSIF may purchase certain credit union assets. In addition, the NCUSIF may provide cash
assistance by acquiring nonperforming assets of a credit union experiencing financial difficulty.
These acquired assets are recorded by the NCUSIF at their estimated net realizable value.

Use of Estimates — The preparation of financial statements in conformity with accounting
principles generally accepted in the United States of America requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, disclosure of
contingent assets and liabilities at the date of the financial statements, and the amounts of revenues
and expenses reported during that period. Actual results could differ from estimates. Significant
items subject to those estimates and assumptions include reserve for losses and contingencies. The
current economic environment has increased the degree of uncertainty inherent in those estimates
and assumptions.

Cash and Cash Equivalents — The Federal Credit Union Act permits the NCUSIF to make
investments in United States Government securities or securities guaranteed as to both principal and
interest by the United States Government. Cash equivalents are liquid investments with original
maturities of three months or less.

Loans and Note Receivable — Notes and loans receivable relate to advances and loans to credit
unions and the National Credit Union Administration Operating Fund. They bear interest based on
rates set by U.S. Treasury and are recorded at face value. The NCUSIF does not intend to sell these
receivables.

An allowance for doubtful accounts is the NCUSIF’s best estimate of the amount of credit losses in
the existing notes. The allowance is determined on an individual note basis upon review of any note
that has a payment past due for over 60 days. A note is impaired if it is probable that the NCUSIF
will not collect all principal and interest contractually due. The impairment, if any, is measured
based on the present value of expected future cash flows discounted at the note’s effective interest
rate. As of December 31, 2009 and 2008, the NCUSIF had not recorded any allowances for notes or
loans receivable nor recognized any amounts to be impaired, as the NCUSIF expects to recover
amounts across the notes and loans receivable as contractually agreed upon.

The NCUSIF does not accrue interest when a note has been considered impaired. When ultimate
collectability of the principal balance of the impaired note is in doubt, all cash receipts on impaired
notes are applied to reduce the principal amount of such notes until the principal has been recovered
and is recognized as interest income thereafter. Impairment losses are charged against the allowance
and increases in the allowance are charged to bad debt expense. Notes are written off against the
allowance when all possible means of collection have been exhausted and the potential for recovery
is considered remote.




                                               -9-
Variable Interest Entities — An entity is referred to as a variable interest entity (“VIE”) if it meets
the criteria outlined in ASC 810, Consolidation (formerly FASB Interpretation No. 46 (R),
Consolidation of Variable interest Entities (revised December 2003) (FIN 46(R)), which are: (1) the
entity has equity that is insufficient to permit the entity to finance its activities without additional
subordinated financial support from other parties, or (2) the entity has equity investors that cannot
make significant decisions about the entity’s operations or that do not absorb their proportionate
share of the expected losses or receive the expected returns of the entity.

In addition, a VIE must be consolidated by the reporting entity that is deemed to be the primary
beneficiary of the VIE, which is the party involved with the VIE that has the majority of the
expected losses or a majority of the expected residual returns or both.

The NCUSIF has variable interests in natural person credit unions (“NPCU”s) that may be deemed
VIEs. These entities are regularly monitored by the NCUSIF to determine their status and whether
any reconsideration events have occurred that could cause its primary beneficiary status to change.
These events include changes in contractual arrangements in a manner that reallocates expected
losses and residual returns among the variable interest holders and providing support to an entity
that results in an implicit variable interest.

Other Receivables

Accrued Interest Receivable
The NCUSIF recognizes accrued interest receivable for amounts of interest that have been
contractually earned but not yet received.

Contributions Receivable from Insured Credit Unions
Each insured credit union pays to the Fund a deposit amount equal to 1% of the credit union’s
insured shares. On an annual basis the NCUSIF recalculates the appropriate deposit amount for each
credit union’s insured shares and reconciles the calculated deposit amount to the current deposit
amount held by the NCUSIF. Any deposit shortfalls are billed to the credit unions to true-up their
current deposited amounts, thereby returning deposit levels to the requisite 1% of insured shares.
Any deposit surpluses over the requisite 1% of insured shares are refunded back to the credit unions.
For credit unions with more than $50 million in insured shares, this true-up process is performed
twice a year.

Premium Receivable
NCUSIF has the statutory authority according to the Federal Credit Union Act of 2003 (revised in
2007 and 2009) Section 1782 “Administration of the Insurance Fund” to assess the federally insured
credit unions for a premium charge. The NCUSIF may assess each insured credit union a premium
charge for insurance in an amount stated as a percentage of insured shares outstanding as of the most
recently ended reporting period, if the NCUSIF’s equity ratio is less than 1.3%. Premium receivable
refers to premium charge amounts that have been billed to federally insured credit unions, but have
not been received as of the balance sheet date.

Investments — Investment securities at December 31, 2009 and 2008, consist solely of U.S.
Treasuries. Effective December 31, 2008, all holdings in the NCUSIF investment portfolio were
transferred from held-to-maturity to available-for-sale. Management determined that NCUSIF could
no longer assert that it had the positive intent and ability to hold these securities to maturity, as they
might be sold in response to a liquidity need.




                                               - 10 -
Available-for-sale securities are recorded at fair value. Unrealized holding gains and losses are
excluded from earnings and reported as a separate component of accumulated other comprehensive
income until realized. Realized gains and losses from the sale of available-for-sale securities are
determined on a specific identification basis.

A decline in the market value of any available-for-sale security below cost that is deemed to be
other-than-temporary results in an impairment to reduce the carrying amount to fair value. The
impairment is charged against earnings and a new cost basis for the security is thereafter established.
To determine whether an impairment is other-than-temporary, the NCUSIF takes into consideration
whether it has the ability and intent to hold a particular investment long enough until a market price
recovery occurs, which entails consideration of evidence to indicate the cost of the investment is
recoverable. Evidence considered in this assessment includes the reasons for the impairment, the
severity and duration of the impairment, expected changes in value of the investment subsequent to
year-end, forecasted performance of the investee, and the general market condition in the geographic
area or industry the investee operates in.

Premiums and discounts are amortized or accreted over the life of the related available-for-sale
security as an adjustment to yield using the effective interest method. The aforementioned
amortization and accretion of a premium and discount, respectively, is recorded in the following
manner: (1) for premiums, the amortization of that premium is recorded to a valuation adjustment
account (contra-asset), which is netted against the security’s carrying amount to bring the recorded
amount of the investment back to down to par, (2) for discounts, the accretion of a discount is
recorded directly to the security’s carrying amount to bring the recorded amount of the investment
back up to par. Dividend and interest income are recognized when earned.

Fixed Assets — Property, plant, equipment, and related intangible assets, subject to amortization,
are carried at amortized cost. Depreciation and amortization are recognized over the useful life.

Long-Lived Assets — In accordance with FASB ASC 360, “Accounting for the Impairment or
Disposal of Long-Lived Assets”, long-lived assets, such as property, plant, and equipment, and
purchased intangible assets subject to amortization, are reviewed for impairment whenever events or
changes in circumstances indicate that the carrying amount of an asset may not be recoverable. If
circumstances require a long-lived asset or asset group to be tested for possible impairment, NCUA
initially performs a comparison between the undiscounted cash flows expected to be generated by
that asset or asset group to its carrying value. If the carrying value of the long-lived asset or asset
group is not recoverable on an undiscounted cash flow basis, an impairment is recognized to the
extent that the carrying value exceeds its fair value. Fair value is determined through various
valuation techniques including discounted cash flow models, quoted market values, and third party
independent appraisals, as considered necessary.

Amounts due to Insured Shareholders of Liquidated Credit Unions — The NCUSIF recognizes
a liability for monies to be paid to insured shareholders of failed, federally insured credit unions.

Revenue Recognition — The NCUSIF recognizes revenue when interest on investments or loans
are earned and when assessments to credit unions have been invoiced.

Reserve for Losses — The NCUSIF records a contingent liability and a loss provision for losses
incurred in the resolution of troubled institutions. Through NCUA’s supervision process, NCUA
applies a supervisory rating system to assess each credit union’s relative health in the adequacy of
Capital, the quality of Assets, the capability of Management, the quality and level of Earnings, and
the adequacy of Liquidity (“CAMEL”), applying a value ranging from “1” (strongest) to “5”


                                              - 11 -
    (weakest). The contingent liability is derived by applying expected failures based on CAMEL
    ratings and historical loss rates. In addition credit union-specific analysis is performed on those
    credit unions where failure is imminent or where additional information is available that may affect
    the estimate of losses.

    Income Taxes — The NCUSIF is exempt from federal income taxes under Section 501(c)(1) of the
    Internal Revenue Code.

    Commitments and Contingencies — Liabilities for general loss contingencies arising from claims,
    assessments, litigation, fines, and penalties and other sources, are recorded when it is probable that a
    liability has been incurred and the amount of the assessment and/or remediation can be reasonably
    estimated. Legal costs incurred in connection with loss contingencies are expensed as incurred.

    Fair Value of Financial Instruments — The NCUSIF adopted ASC 820-10, Fair Value
    Measurements and Disclosures. The statements defines fair value, expands disclosure requirements
    around fair value and specifies a hierarchy of valuation techniques based on whether the inputs to
    those valuation techniques are observable or unobservable. Observable inputs reflect market data
    obtained from independent sources, while unobservable inputs reflect the NCUSIF’s market
    assumptions. This hierarchy requires the NCUSIF to use observable market data, when available,
    and to minimize the use of unobservable inputs when determining fair value.

    Related Party Transactions — The NCUSIF is one of the five funds under the common control of
    the NCUA Board. The NCUSIF had related party transactions during 2009 with the NCUA
    Operating Fund, the CLF and the TCCUSF, as discussed further within the notes to the financial
    statements.

3. NEWLY IMPLEMENTED ACCOUNTING STANDARDS

    In 2009, NCUSIF adopted an amendment to the accounting standards on the GAAP hierarchy
    (FASB ASC 105). This amendment changes the GAAP hierarchy used in the preparation of
    financial statements of non-governmental entities. It establishes the FASB Accounting Standards
    Codification as the source of authoritative accounting principles recognized by the FASB to be
    applied by non-governmental entities in the preparation of financial statements in conformity with
    GAAP in the United States. Rules and interpretive releases of the U.S. Securities and Exchange
    Commission (SEC) under authority of federal securities laws are also sources of authoritative GAAP
    for SEC registrants. The adoption of this amendment had no impact to the financial statements.

    In 2009, the NCUSIF adopted the amendment to the accounting standards for subsequent events
    (FASB ASC 855). This amendment establishes general standards of accounting for, and disclosing
    events that occur after the balance sheet date but before financial statements are issued or are
    available to be issued. In particular, this statement sets forth (a) the period after the balance sheet
    date during which management of a reporting entity should evaluate events or transactions that may
    occur for potential recognition or disclosure in the financial statements, (b) the circumstances under
    which an entity should recognize events or transactions occurring after the balance sheet date in its
    financial statements, and (c) the disclosures that an entity should make about events or transactions
    that occurred after the balance sheet date. It also requires entities to disclose the date through which
    subsequent events were evaluated, and determine whether that date is the date that financial
    statements were issued or the date they were available to be issued. The adoption of this amendment
    did not have a material impact on the financial statements.




                                                  - 12 -
4. CASH AND CASH EQUIVALENTS

    NCUSIF’s cash and cash equivalents at December 31, 2009 and 2008, are as follows:

                                                 2009                 2008
    (Dollars in thousands)
    Deposits with U.S. Treasury            $             217 $                  384
    U.S. Treasury overnight investments              817,222               3,836,960
    Total cash and cash equivalents        $         817,439 $             3,837,344



5. INVESTMENTS

    The Federal Credit Union Act, Section 1783 (c) as amended provides guidance regarding holding
    U.S. Treasury securities. The NCUSIF currently does not hold any corporate debt or equity
    securities. All investments at the NCUSIF pertain to U.S. Treasury securities of varying maturities.

    In addition, the NCUSIF does not maintain any investments in securities that have been classified as
    trading or held-to-maturity as per FASB ASC 320, “Investments — Debt and Equity Securities.”

    The carrying amount, gross unrealized holding gains, gross unrealized holding losses, and fair value
    of available-for-sale debt securities at December 31, 2009 and 2008, were as follows:


                                                                Gross
                                                              Unrealized   Gross Unrealized
                                           Carrying Amount   Holding Gains Holding (Losses)         Fair value
    (Dollars in thousands)
    At December 31, 2009
       Available for sale:
               U.S. Treasury securities    $     8,620,965   $     127,388    $        (50,040) $       8,698,313


    At December 31, 2008
       Available for sale:
             U.S. Treasury securities      $     3,964,975   $     278,338    $               - $       4,243,313



    Maturities of debt securities classified as available-for-sale at December 31 were as follows:

                                                                             Fair value
    (Dollars in thousands)
    Available for sale:
       Due prior to one year                                           $          1,470,781
       Due after one year through five years                                      6,788,485
       Due after five years through ten years                                       439,047
                                                                       $          8,698,313




                                                    - 13 -
    Proceeds from the sale of investment securities classified as available-for-sale were $0 and
    $2.5 billion in 2009 and 2008, respectively; gross realized gains included in investment income in
    2009 and 2008 were $0 and $106 million, respectively; and there were no realized losses in 2009 or
    2008.

    Gross unrealized losses on investment securities, for which other-than-temporary impairments have
    not been recognized, in addition to the fair values of those securities, aggregated by investment
    classification and length of time the investments have been in a loss position, at December 31, 2009,
    were as follows:

                                                              Duration of Losses - Less than 12 months
                                                        Unrealized         Unrealized
                                                          losses              gains              Fair value
    (Dollars in thousands)
    Available for sale:
                      U.S. Treasury securities     $            (50,040) $        127,388     $           8,698,313



    The unrealized losses on investments in U.S. Treasury securities, included in the table above, were
    the result of lower interest rates. The contractual terms of those investments do not permit the issuer
    to settle the securities at a price less than the amortized cost of the investment. Because the NCUSIF
    asserts the ability and intent to hold these investments until a market price recovery occurs or until
    maturity, these investments are not considered other-than-temporarily-impaired.

6. FAIR VALUE MEASUREMENTS AND DISCLOSURES

    Fair Value of Financial Instruments
    The NCUA adopted ASC 820-10, Fair Value Measurements and Disclosures. The statement defines
    fair value, expands disclosure requirements around fair value and specifies a hierarchy of valuation
    techniques based on whether the inputs to those valuation techniques are observable or
    unobservable. Observable inputs reflect market data obtained from independent sources, while
    unobservable inputs reflect NCUSIF’s market assumptions.

    Cash and Cash Equivalents, Receivables and Payables, Due to the NCUA Operating Fund, and
    Amounts Due to Insured Shareholders of Liquidated Credit Unions
    The carrying amounts, at face value or cost plus accrued interest, approximate fair value because of
    the short maturity of these instruments.

    Investment Securities
    Debt securities classified as available-for-sale are measured using quoted market prices multiplied
    by the quantity held when quoted market prices are available. These instruments are determined to
    be Level 1 inputs.

    The following tables present the carrying amounts and estimated fair values of NCUSIF’s financial
    instruments at December 31, 2009 and 2008. FASB ASC 825, “Financial Instruments”, defines fair
    value as either the price received to sell an asset or the price paid to transfer a liability, as part of an
    orderly transaction between market participants at the measurement date.




                                                       - 14 -
The fair values of the financial instruments shown in the below table as of December 31, 2009 and
2008, represents management’s best estimates for either the amount that would be received to sell
those assets, or the amount that would be paid to transfer those liabilities in an orderly transaction
between market participants at that date. Those fair value measurements maximize the use of
observable inputs. However, in situations where there is little, if any, market activity for the asset or
liability at the measurement date, the fair value measurement reflects the judgment by the NCUSIF,
regarding the assumptions market participants would consider, in pricing the asset or liability. The
NCUSIF’s judgment, in this instance, was developed through utilizing the best information available
at the time, under the given circumstances.

(Dollars in thousands)
                                                                               2009                                2008
                                                                  Carrying value       Fair value      Carrying value     Fair value
Financial assets:
  Cash and cash equivalents                                   $          817,439          817,439           3,837,344     3,837,344
  Investments                                                          8,698,313        8,698,313           4,243,313     4,243,313
  Contributions receivable from insured credit unions                     17,614           17,614                 992           992
  Due from NCUA Operating Fund                                            18,438           18,438              19,779        19,779
  Premium receivable                                                      12,901           12,901                 -             -
  Loans receivable                                                    10,000,000       10,000,000                 -             -
  Assets acquired in assistance
     to insured credit unions                                           152,423           152,423               71,216       71,216
  Accrued interest receivable                                            72,356            72,356               39,848       39,848
  Accrued fee receivable                                                   -                 -                   1,929        1,929
Financial liabilities:
  Cash assistance liability                                                5,393               5,393             2,000        2,000
  Amounts due to insured shareholders of
    liquidated credit unions                                              12,192           12,192               10,356       10,356
  Due to NCUA Operating Fund                                               2,257            2,257                  169          169
  Interest payable                                                         1,302            1,302                 -             -
  Obligations under capital leases                                          -                -                      89            89
  Note payable                                                        10,000,000       10,000,000                 -             -
  Accounts payable                                                        27,474           27,474                   56            56



(Dollars in thousands)                                                                 Fair value measurements at
                                                                                          reporting date using
                                                                            Quoted prices
                                                                              in active        Significant
                                                                             markets for           other        Significant
                                                                              identical        observable      unobservable
                                                            December 31,        assets            inputs          inputs
                                                                2009          (Level 1)         (Level 2)        (Level 3)
Assets:
  Investments                                           $      8,698,313           8,698,313                -                 -




                                                        - 15 -
     (Dollars in thousands)                                                   Fair value measurements at
                                                                                 reporting date using
                                                                   Quoted prices
                                                                     in active        Significant
                                                                    markets for           other        Significant
                                                                     identical        observable      unobservable
                                                   December 31,        assets            inputs          inputs
                                                       2008          (Level 1)         (Level 2)        (Level 3)
     Assets:
       Investments                             $       4,243,313      4,243,313                 -               -



    The carrying amounts shown in the tables above are included on the balance sheets under the
    indicated captions.

7. LOANS AND NOTES RECEIVABLE

    U.S. Central and Wescorp Liquidity Stabilization Loans
    On March 20, 2009, the NCUSIF made two $5.0 billion liquidity stabilization loans (with funds
    borrowed from the CLF) to USC and WesCorp respectively. These advances were issued for
    settlement on March 20, 2009, by the NCUSIF and are fully collateralized by the assets of the
    borrowers referred to herein. Both advances have a fixed interest rate of 0.528% as of December 31,
    2009. Interest payments are scheduled for June 21, 2010, in the amount of $13.1 million (per
    advance) and for December 21, 2010, in the amount of $13.2 million (per advance), with the
    principal due on December 21, 2010, in the amount of $5.0 billion (per advance).

    The notes were originally issued to both USC and WesCorp on March 20, 2009, by the NCUSIF,
    with a maturity date of June 22, 2009 (with principal and interest due on that date). Upon maturity,
    both notes were extended with a maturity date of December 21, 2009. Upon maturity on
    December 21, 2009, both notes were extended once more for a full year, with a current maturity date
    of December 21, 2010.

    National Credit Union Administration Operating Fund
    In 1992, the NCUSIF lent approximately $42 million to the NCUA Operating Fund, pursuant to a
    thirty-year note secured by the NCUA premises in Alexandria, Virginia. Interest income recognized
    was approximately $509 thousand and $807 thousand for 2009 and 2008, respectively. The note
    receivable balances at December 31, 2009 and 2008, were approximately $18.4 million and
    $19.8 million, respectively.

    The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
    interest rates during 2009 and 2008, were 2.56 % and 3.95%, respectively. The interest rates at
    December 31, 2009 and 2008, were 2.06 % and 3.49%, respectively.




                                                   - 16 -
    The above note requires principal repayments at December 31 as follows (in thousands):

     Years Ending                                                                                Secured
     December 31                                                                                Term Note

     2010                                                                                       $ 1,341
     2011                                                                                         1,341
     2012                                                                                         1,341
     2013                                                                                         1,341
     2014                                                                                         1,341
     Thereafter                                                                                  11,733

     Total                                                                                      $ 18,438


8. VARIABLE INTEREST ENTITIES

    National Person Credit Unions
    During the year ended December 31, 2009, NCUA held variable interests in the natural person credit
    unions (“NPCUs”) it supervises and regulates in the form of insurance on member deposits up to
    $250,000. Reconsideration events (e.g. conservatorships) could result in such credit unions being
    deemed VIEs and NCUA becoming the primary beneficiary of the NPCU VIEs. Total insured shares
    for NPCUs, or maximum exposure to loss, as of December 31, 2009 and 2008, were $724.8 billion
    and $658.9 billion, respectively.

    NCUA has documented herein the process for identifying needed reserves, both specific and general,
    to cover expected losses due to insurance on member deposits. Expected losses are only a fraction of
    the maximum exposure to loss; approximately 1.0 percent for 2009 and less than 0.5 percent for
    2008. The total reserves for identified and anticipated losses resulting from NPCU failures are
    $758.7 million and $278.3 million at December 31, 2009 and 2008, respectively.

    Corporate Credit Unions
    During 2008 and through June 2009, there was significant discussion at NCUA regarding the
    variable interests held in corporate credit unions (CCUs”), which resulted from NCUA actions to
    stabilize the CCU system. It was concluded that for 2008 the NCUSIF would be the primary
    beneficiary of certain identified VIEs based on variable interests held by the NCUSIF at
    December 31, 2008, and therefore, the NCUSIF would have been required to consolidate such VIEs
    in its financial statements for the year ended December 31, 2008. However, based on the actions
    discussed below, it was concluded that the TCCUSF would be the primary beneficiary of these same
    VIEs based on variable interests held by the TCCUSF at December 31, 2009. The shift in primary
    beneficiary from 2008 to 2009 was the result of the June 18, 2009, actions of the NCUA Board to
    transfer the legal obligations related to CCUs from the NCUSIF to the TCCUSF. Such actions
    relieved the NCUSIF for the costs and related obligations of stabilizing the CCU system, as provided
    by Public Law 111-22, which was enacted May 20, 2009.

    Given the shift in 2009 for the responsibility for corporate stabilization efforts from the NCUSIF to
    the TCCUSF, the NCUSIF has applied ASC 250 Accounting Changes and Error Correction”, as
    discussed in the next paragraph.




                                                  - 17 -
    On June 18, 2009, the NCUA Board approved actions to legally transfer corporate stabilization
    efforts to the TCCUSF and relieve the NCUSIF of such activities. Accordingly NCUSIF is no longer
    required to consolidate any corporate credit unions. Furthermore, because the NCUSIF and the
    TCCUSF are under common control, this resulted in a change in reporting entity. This change in
    reporting entity has been applied retrospectively to 2008. Accordingly, the accompanying financial
    statements for the year ended December 31, 2008 do not reflect the consolidation of any CCUs.

9. RESERVE FOR LOSSES

    Management identifies credit unions experiencing financial difficulty through NCUA’s supervisory
    and examination process. Management on a specified case basis determines the estimated losses
    from these supervised credit unions. Management also evaluates overall economic trends and
    monitors potential system-wide risk factors, such as increasing levels of consumer debt,
    bankruptcies, and delinquencies. NCUA applies a rating system to assess a credit union’s financial
    condition and operations in the areas of Capital Adequacy, Asset Quality, Management, Earnings,
    and Asset/Liability Management (“CAMEL”). The CAMEL Rating System is a tool to measure risk
    and allocate resources for supervisory purposes. NCUA periodically reviews the CAMEL Rating
    System to respond to continuing economic and regulatory changes in the credit union industry. For
    general reserve requirements, risk profile categories are established based on the CAMEL ratings of
    problem credit unions, and probable failure and loss rates are applied based on historical data. The
    anticipated losses are net of estimated recoveries from the disposition of the assets of failed credit
    unions.

    Total insured shares for natural person credit unions as of December 31, 2009 and 2008, were
    $724.8 billion and $658.9 billion, respectively. The total reserves for identified and anticipated
    losses resulting from supervised credit unions’ failures are $758.7 million and $278.3 million at
    December 31, 2009 and 2008, respectively.

    In exercising its supervisory function, the NCUSIF will at times, extend guarantees of assets
    (primarily loans) to third-party purchasers or to existing credit unions to facilitate mergers. The
    NCUSIF would be obligated upon nonperformance. No such guarantees were outstanding at
    December 31, 2009 and 2008. Estimated losses resulting from asset and merger guarantees are
    evaluated by management on a case-by-case basis.

    In addition, the NCUSIF may grant a guaranteed line-of-credit to a third-party credit provider, such
    as a corporate credit union or bank, if a particular credit union were to have a current or immediate
    liquidity concern and the credit provider has refused to extend credit without a guarantee. The
    NCUSIF would thereby be obligated if the credit union failed to perform. Total line-of-credit
    guarantees of credit unions at December 31, 2009 and 2008, are approximately $1.0 million and
    $50.0 million, respectively. The total balances outstanding under these line-of-credit guarantees at
    December 31, 2009 and 2008, are approximately $0.0 and $22.0 million, respectively. The carrying
    amount of the liability as of December 31, 2009 and 2008, for the outstanding NCUSIF guarantees is
    $18.5 thousand and $1.1 million, respectively. The guarantees expire in March of 2010.

    On rare occasions, the NCUSIF provides indemnifications, as part of a merger assistance agreement,
    to acquiring credit unions. Such indemnifications make the NCUSIF contingently liable based on the
    outcome of any legal actions. There was one such indemnification contingency at December 31,
    2009, for $37,000, which expires in December 2010. As of December 2008, there was one
    indemnification contingency for $37,000, which expires in December 2010.




                                                   - 18 -
     The activity in the reserve for losses from supervised credit unions for the years ended December 31,
     2009 and 2008, was as follows:

                                                                           2009              2008
     (Dollars in thousands)

     Beginning balance                                                $    278,343       $ 215,780
     Insurance losses paid                                                (161,685)       (284,626)
     Recoveries                                                             16,943          56,835
     Provision for insurance losses                                        625,140         290,354

     Ending balance                                                   $    758,741       $ 278,343

     The increase in the provision for insurance losses is due to the following (in thousands):

     Specific reserves — increased from $46,043 at December 31, 2008, to $161,841 at December 31,
     2009.

     General reserves — increased from $232,300 at December 31, 2008, to $596,900 at December 31,
     2009. Reserve amounts pertaining to the CCU system included $3.7 million for 2008. In 2009, the
     amount pertaining to the CCU system was $0, as all of the reserves pertaining to the corporate credit
     unions were obligated to the TCCUSF.

     In addition to these recorded contingent liabilities, additional adverse performance in the financial
     services industry could result in additional loss to the NCUSIF. The ultimate losses for supervised
     credit unions will largely depend upon future economic and market conditions and accordingly,
     could differ significantly from initial estimates.

10. PREMIUM INCOME

     The fund may assess each insured credit union a premium charge for insurance in an amount stated
     as a percentage of insured shares outstanding as of the most recently ended reporting period if the
     Fund’s equity ratio is less than 1.3%. When the Board projects that the equity ratio will, within six
     months, fall below 1.2%, the Board shall establish and implement a restoration plan within 90 days,
     which meets the requirements and conditions that the Board determined appropriate. In order to
     meet the requirements established by the Board, the plan must provide that the equity ratio will meet
     or exceed the minimum amount specified before the end of the 8-year period beginning upon the
     implementation of the plan (or such longer period as the Board may determine to be necessary due
     to extraordinary circumstances). In November 2009, the NCUA Board assessed a .1027 percent
     premium of insured shares totaling $727.5 million.

11. INSURED CREDIT UNIONS’ ACCUMULATED CONTRIBUTIONS

     In 1998, the Federal Credit Union Act was amended to mandate changes to the NCUSIF’s
     capitalization provisions effective January 1, 2001. 12 U.S.C. 1782(a). The Credit Union
     Membership Access Act of 1998 (CUMAA) mandated changes to the NCUSIF’s capitalization
     provisions effective January 1, 2000. Each insured credit union shall pay to and maintain with the
     NCUSIF a deposit in an amount equaling 1% of the credit union’s insured shares. The amount of
     each insured credit union’s deposit shall be adjusted as follows, in accordance with procedures
     determined by the NCUA, to reflect changes in the credit union’s insured shares: (i) annually, in the
     case of an insured credit union with total assets of not more than $50 million; and (ii) semiannually,


                                                   - 19 -
     in the case of an insured credit union with total assets of $50 million or more. The annual and
     semiannual adjustments are based on member share deposits outstanding as of December 31 of the
     preceding year and June 30 of the current year, respectively. The 1% contribution will be returned to
     the insured credit union in the event that its insurance coverage is terminated, or is obtained from
     another source, or the operations of the NCUSIF are transferred from the NCUA.

     Beginning in 2000, the CUMAA mandates that dividends are determined from specific ratios, which
     are based upon year-end reports of insured shares. Accordingly, dividends associated with insured
     shares at year-end are declared and paid in the subsequent year.

     In December 2007, the NCUA set the normal operating level at 1.30%. The calculated equity ratios
     at December 31, 2009 and 2008, were 1.23% and 1.26%, respectively.

     Total insured shares as of December 31, 2009 and 2008, were $724.8 billion and $658.9 billion,
     respectively. The equity ratio for 2008 was calculated based on an insured share base of $611.6
     billion. Although deposit insurance coverage was increased from $100,000 to $250,000, the
     calculation for the equity ratio was based on the $100,000 level due to the temporary nature of the
     increase in insurance coverage. Insurance coverage at the $250,000 level was subsequently extended
     to December 31, 2013.

12. RELATED PARTY TRANSACTIONS

     Central Liquidity Facility
     On March 19, 2009, the NCUA Board took steps to stabilize the corporate credit union system when
     it placed USC and WesCorp into conservatorship. The NCUSIF has in place with the CLF, a
     Funding Commitment and Agreement and a Short-Term Revolving Promissory Note dated
     March 20, 2009, to fund $20.0 billion with a final maturity date of any advance at December 31,
     2010. There was $10.0 billion remaining on this commitment as of December 31, 2009. CLF
     approved an advance of $10.0 billion to NCUSIF in order for NCUSIF to make $5.0 billion in
     liquidity stabilization loans to both USC and WesCorp. The notes were originally issued to both
     USC and WesCorp on March 20, 2009, by the NCUSIF, with a maturity date of June 21, 2009 (with
     principal and interest due on that date). Upon maturity, both notes were extended with a maturity
     date of December 21, 2009. Upon maturity on December 21, 2009, both notes were extended once
     more for a full year, with a current maturity date of December 21, 2010. The advance bears interest
     at a rate of 0.528% per annum at December 31, 2009.

     NCUA Operating Fund (OF)
     Certain administrative services are provided to the NCUSIF by the OF. The OF charges NCUSIF for
     these services based upon an annual allocation factor approved by the NCUA Board and derived
     from a study of actual usage. As of December 31, 2009 and 2008, the NCUSIF had accrued
     $2.3 million and $169,000, respectively, in amounts due to the NCUA Operating Fund. The
     allocation factor was 53.8% to NCUSIF for 2009 and 52.0% for 2008. The cost of the services
     allocated to NCUSIF, which totaled approximately $90.2 million and $79.4 million for 2009 and
     2008, respectively, is reflected as an addition to the corresponding expenses in the accompanying
     financial statements.

     The NCUSIF issued a secured term note in 1992 to fund the costs of constructing a building in 1993
     for the OF. The amount funded through the note was approximately $42.0 million. Interest costs
     incurred were $509,000 and $807,000 for 2009 and 2008, respectively. The note payable balances at
     December 31, 2009 and 2008 were approximately $18.4 million and $19.8 million, respectively.




                                                  - 20 -
     The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The average
     interest rates during 2009 and 2008, were 2.56 % and 3.95%, respectively. The interest rates at
     December 31, 2009 and 2008, were 2.06 % and 3.49%, respectively.

     Temporary Corporate Credit Union Stabilization Fund (“TCCUSF”)
     On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF, and thereby
     relieve the NCUSIF, for the costs of stabilizing the CCU system as previously described herein. As a
     result, the status of issuer and holder of the Capital Note was legally obligated to the TCCUSF and
     relieved from the NCUSIF. The Board also approved to legally obligate the TCCUSF for the liability
     arising from the TCCUSGP and TCCULGP; both programs having also been relieved from the
     NCUSIF.

13. CONCENTRATIONS

     The NCUSIF has the following concentrations of risk: 10 of the largest natural person credit unions
     hold 13.6 percent of the total assets within the credit union system and account for 13.0 percent of
     the contributed capital within the credit union system. Real estate secured loans are the largest single
     asset type within the natural person credit union system, accounting for 35.0 percent of total assets.
     The states of California, Florida, Arizona, and Nevada present a credit concentration risk accounting
     for 22.0 percent of the total real estate loans outstanding and 31 percent of total delinquent loans.

14. COMMITMENTS AND CONTINGENCIES

     The Fund is currently a party to a number of disputes that involve or may involve litigation. In the
     opinion of management, the ultimate liability with respect to any other disputes, if any, will not be
     material to the Fund’s financial position.

15. SUBSEQUENT EVENTS

     Subsequent events have been evaluated through June 10, 2010, which is the date the financial
     statements were available to be issued. There have been no activities that would materially affect
     financial statement balances as of December 31, 2009.




                                                   - 21 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2009, and the related statements of operations, changes in fund balance, and cash flows for
the year then ended (hereinafter referred to as “financial statements”), and have issued our report thereon
dated June 11, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2009 audit, we considered the NCUSIF’s internal control over
financial reporting by obtaining an understanding of the NCUSIF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the NCUSIF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the NCUSIF’s internal control over
financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
National Credit Union Share Insurance Fund
June 11, 2010
Page 2 of 2


In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified a certain
deficiency in internal control over financial reporting that we consider to be a significant deficiency that is
described in Exhibit I. Exhibit III presents the status of the prior year material weakness.

The NCUSIF’s responses to the finding identified in our audit are presented in Exhibit II. We did not audit
the NCUSIF’s response and, accordingly, we express no opinion on it.

We noted certain additional matters that we have reported to management of the NCUSIF in a separate
letter dated June 11, 2010.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




June 11, 2010
                                                                                                     Exhibit I


                    NATIONAL CREDIT UNION – SHARE INSURANCE FUND

                                      SIGNIFICANT DEFICIENCY



Introduction

This exhibit describes the significant deficiency noted during our audit as of and for the year ended
December 31, 2009, and our recommendations thereon. The National Credit Union Share Insurance Fund
(the SIF) management’s response to this finding is presented in Exhibit II.

Improvements Needed in Financial Accounting and Reporting Process

The SIF does not have sufficient staff resources with the experience in technical accounting and reporting
requirements that the entity requires to consistently perform certain internal control activities, particularly
those related to the preparation and review of the financial statements. For example, we noted:

1   A lack of documentation of control activities. The SIF does not have procedures in place that require
    review and approval of the journal entries and related supporting documentation because the journal
    entries that we tested did not have evidence that the journal entries were reviewed and approved by
    someone other than the preparer.

2   Lack of formal policies and procedures that require periodic reassessment of the adequacy and
    propriety of required disclosure and that also would stipulate the review process and require
    secondary reviews and approvals of the financial statements and related supporting documentation.

3   Supervisory reviews that were nonetheless performed were not entirely effective in identifying
    improper financial statement presentation and missing disclosures. In part, the individuals compiling
    the financial statements did not possess sufficient technical knowledge and/or institutional expertise
    that would enable effective performance of such preparation and reviews. For example, the draft
    financial statements prepared for the year ended December 31, 2009 did not properly identify and
    present comprehensive income and its related components in the statement of fund balance and
    comprehensive income. Additionally, such draft financial statements also improperly aggregated
    certain items on the statement of cash flows to comprise both non-cash reconciling items and actual
    cash disbursements. Additionally, there were several occurrences of inconsistencies, in similarly or
    identically described amounts, both between the basic financial statements and the amounts in the
    note disclosures and internally within the notes. As a result of our observations, management
    analyzed and adjusted the financial report.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and Control,
defines management’s responsibility and provides guidance to Federal managers on improving the
accountability and effectiveness of Federal programs and operations by establishing, assessing,
correcting, and reporting on internal control. Management controls are the organization policies and
procedures used to reasonably ensure that (i) programs achieve their intended results; (ii) resources are
used consistent with agency mission; (iii) programs and resources are protected from waste, fraud, and
mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely information is
obtained, maintained, reported and used for decision making. Further, OMB Circular No. A-123
elaborate on both general attributes and specific controls that are essential for effective management
controls. Management is responsible for developing control activities, which are the policies, procedures,
techniques, and mechanisms that enforce management’s directives and help ensure actions address risks.
                                                     I-1 

 
                                                                                                Exhibit I


The activities include reviews by management at the functional or activity level, proper execution of
transactions and events, accurate and timely recording of transactions and events, and appropriate
documentation of transactions and internal control. Without such effective controls, there is an increased
risk of material misstatements to the financial statements and related disclosures. 

Recommendations

We recommend that the NCUA modify accounting policies, procedures and controls as follows:

   Reassess on a comprehensive basis the staff capabilities and operational and reporting processes to
    determine the areas where new and/or revised controls are warranted. This is especially vital when
    viewed within the context of the migration to the new financial accounting system. Consider also the
    control environment to determine the necessary requirements to satisfy the criteria referenced above.

   Match qualified personnel who are regularly trained and who possess the unique skills necessary to
    account for and report NCUA transactions consistent with the requirements of U.S. generally
    accepted accounting principles to the key NCUA process and control activities.

   Improve the overall core competencies of key financial management and personnel through training
    that is sufficiently robust and focused on the areas of need.

   Adopt formal methodology to regularly (at least annually) evaluate and update the Fund’s policies and
    procedures to adapt to significant operational changes and adopt accounting pronouncement as such
    changes occur. Where transactions are similar across the NCUA, it may be advantageous to prepare
    combined accounting policies and pro forma disclosures. 




                                                   I-2 

 
                        National Credit Union Administration

                                                                                   Exhibit II

                NATIONAL CREDIT UNION SHARE INSURANCE FUND
                  MANAGEMENT RESPONSE TO AUDIT FINDINGS


Findings: Improvements Needed in Financial Accounting and Reporting Process

The OCFO experienced a significant increased level of work during 2009, including
implementing a new financial management system, adding the Temporary Corporate
Credit Union Stabilization Fund, assessing insured credit unions for the collection of a
premium, and addressing a considerable increase in the level of complexity in accounting
transactions and reporting.

The financial statement audit, which resulted in an unqualified opinion, identified findings
related to needed improvement in the National Credit Union Share Insurance Fund’s
(NCUSIF) financial accounting and reporting processes. NCUA agrees that they warrant
management’s attention.

We believe the findings can best be categorized as:
   1. Lack of documentary evidence of supervisory review, especially over journal entries;
   2. Comprehensiveness of documentation with accounting policies and procedures; and
   3. Weaknesses with conforming our annual financial statements into the form and
      content required by Generally Accepted Accounting Principles.

We will implement corrective action to address these findings taking into consideration the
agency’s resources and priorities.

   1. Lack of documentary evidence of supervisory review, especially over journal entries:

       As a small agency with limited resources, NCUA is still required to assess its
       internal control structure with the goal of ensuring that risks are appropriately
       mitigated. As part of implementing our new financial management system, we will
       review controls around journal entries and consider establishing a threshold for
       documenting supervisory review of journal entries above a certain dollar threshold
       or unusual in nature.

   2. Comprehensiveness of documentation with accounting policies and procedures:

       Audit findings highlighted the lack of comprehensiveness of our accounting policies
       and procedures as well as available documentation to evidence compliance. In
       response, NCUA will review controls where the availability of documentation
       appeared limited and strengthen processes accordingly. NCUA will also start
       building a repository of accounting and internal control policies and practices, which
       can be readily accessed by all NCUA staff.




  1775 Duke Street - Alexandria, VA 22314-3428 - 703-518-6300
3. Weaknesses with conforming our annual financial statements into the form and
   content required by generally accepted accounting principles:

   NCUA is a small Federal agency and must focus its resources on essential functions.
   Financial accounting and reporting is viewed by executive agency management as
   important and essential. Financial highlights of all funds are made available to all
   at public Board meetings and on the agency’s web site. The findings cited by our
   auditors relate to our annual process of preparing the financial statements in the
   form and content required by generally accepted accounting principles.           To
   strengthen our financial reporting, we will review and refine our internal control
   processes and evaluate training requirements. We will also hire additional staff
   with requisite skills.




                                        2
                                                                                              Exhibit III


                   NATIONAL CREDIT UNION – SHARE INSURANCE FUND

                       STATUS OF PRIOR YEAR MATERIAL WEAKNESS


Prior Year Material Weakness

During the fiscal year 2008 financial statement audit, the prior year auditors noted a material weakness
regarding the National Credit Union Share Insurance Fund (NCUSIF) accounting and reporting for the
consolidation of certain variable interest entities.

Current Year Status of the Prior Year Material Weakness

During fiscal year 2009, management determined that due to the change in reporting entity, the NCUSIF
no longer should consolidate the variable interest entities identified during the 2008 financial statement
audit. Certain accounting and reporting deficiencies continued to be observed in 2009 as described in
Exhibit I.




                                                  III-1 

 
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Share Insurance Fund (NCUSIF) as of
December 31, 2009, and the related statements of operations, changes in fund balance, and cash flows for
the year then ended (hereinafter referred to as “financial statements”), and have issued our report thereon
dated June 11, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the NCUSIF is responsible for complying with laws, regulations, and contracts
applicable to the NCUSIF. As part of obtaining reasonable assurance about whether the NCUSIF’s
financial statements are free of material misstatement, we performed tests of the NCUSIF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the NCUSIF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the third paragraph of this report disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, NCUSIF’s management, OMB,
the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should
not be used by anyone other than these specified parties.




June 11, 2010




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Share Insurance Fund (NCUSIF)
as of and for the year ended December 31, 2008, and have issued our report thereon dated June 10 , 2010.
We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered NCUSIF’s internal control over financial reporting
as a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of NCUSIF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
NCUSIF’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial
reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies or material weaknesses have been identified.
However, as described in the accompanying schedule of findings and responses, we identified a certain
deficiency in internal control over financial reporting that we consider to be a material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned function, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described in the accompanying schedule of findings and responses to be a
material weakness. See finding 2008-01.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether NCUSIF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Share Insurance
Fund and is not intended to be, and should not be, used by anyone other than these specified parties.




June 10, 2010
NATIONAL CREDIT UNION SHARE INSURANCE FUND

SCHEDULE OF FINDINGS AND RESPONSES
AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2008


FINDING 2008-01

Condition: National Credit Union Share Insurance Fund (NCUSIF) failed to properly identify the
appropriate accounting treatment under Financial Accounting Standards Board (FASB) Accounting
Standards Codification (ASC) 810, Consolidation (formerly, FASB Interpretation No. 46 (R),
Consolidation of Variable Interest Entities with respect to its variable interests in certain corporate credit
unions.

Criteria: An entity is a variable interest entity (VIE) if it meets the criteria outlined in ASC 810, which
are: (1) the entity has equity that is insufficient to permit the entity to finance its activities without
additional subordinated financial support from other parties, or (2) the entity has equity investors that
cannot make significant decisions about the entity’s operations or that do not absorb their proportionate
share of the expected losses or receive the expected returns of the entity. A VIE must be consolidated by
the reporting entity that is deemed to be the primary beneficiary of the VIE, which is the party involved
with the VIE that has the majority of the expected losses or a majority of the expected residual returns or
both. NCUSIF was deemed to be the primary beneficiary of certain VIE’s at December 31, 2008.

Effect: NCUSIF should have consolidated the VIE’s in which it was the primary beneficiary as of
December 31, 2008. However, effective June 18, 2009, NCUSIF legally transferred its obligations with
respect to the corporate credit unions to a newly formed entity, the Temporary Corporate Credit Union
Stabilization Fund (TCCUSF). As a result, effective with that date, NCUSIF was no longer required to
consolidate VIE’s in accordance with ASC 810. Because NCUSIF and TCCUSF are under common
control, this has resulted in a change in reporting entity in accordance with FASB ASC 250, Accounting
Changes and Error Corrections; accordingly, TCCUSF is now considered the primary beneficiary.

Cause: This condition results from a deficiency in the design of internal control as NCUSIF did not
initially identify the correct accounting treatment for its variable interests in certain corporate credit
unions.

Monetary Impact: There is no monetary impact associated with this finding due to the fact that
subsequent to December 31, 2008, NCUSIF legally transferred its obligations with respect to the
corporate credit unions to a newly formed entity.

Recommendation: NCUSIF should consider all relevant accounting literature as it prepares its financial
statements to ensure accuracy in accounting and presentation.

Management Response: NCUA is a small Federal agency and must focus its resources on essential
functions. Financial accounting and reporting is viewed by executive agency management as important
and essential. Financial highlights of all funds are made available to all at public Board meetings and on
the agency’s web site. The finding cited by our auditors relates to our annual process of preparing the
financial statements in the form and content required by generally accepted accounting principles. To
strengthen our financial reporting, we will review and refine our internal control processes and evaluate
training requirements. We will also hire additional staff with requisite skills.
National Credit Union
Administration Central
Liquidity Facility
Financial Statements as of and for the
Years Ended December 31, 2008 and 2007, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                                  Page

INDEPENDENT AUDITORS’ REPORT                                       1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2008 AND 2007:

 Balance Sheets                                                    2

 Statements of Operations                                          3

 Statements of Members’ Equity (Deficit)                           4

 Statements of Cash Flows                                          5

 Notes to Financial Statements                                    6–11

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
  REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON
  THE AUDIT PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING
  STANDARDS                                                       12–14
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 2008 and 2007, and the related statements of operations,
members’ equity (deficit), and cash flows for the years then ended. These financial statements are the
responsibility of CLF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Central Liquidity Facility as of December 31, 2008 and 2007,
and the results of its operations and its cash flows for the years then ended in conformity with accounting
principles generally accepted in the United States of America.

As discussed in Note 4 to the financial statements, effective December 31, 2008, CLF has changed the
presentation of its funds on deposit with U. S. Central Federal Credit Union.

In accordance with Government Auditing Standards, we have also issued our report dated March 15,
2010, on our consideration of CLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and grant agreements and other matters.
The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audits.




March 15, 2010
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
AS OF DECEMBER 31, 2008 AND 2007
(In thousands)


                                                                           2008              2007
ASSETS

ASSETS:
 Cash                                                                $            17   $         12
 Funds on deposit with U.S. Central Federal Credit Union (Notes 4,
  6, and 11)                                                                   -           1,638,285
 Loans to members (Notes 5, 6 and 11)                                    1,585,478               -
 Accrued interest receivable                                                14,669            23,922

TOTAL                                                                $ 1,600,164       $ 1,662,219


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities                              $       2,287     $        132
 Dividends payable (Note 8)                                                 12,369           23,777
 Federal Financing bank notes payable                                    1,585,478              -
 Member deposits (Note 8)                                                      486              642

       Total liabilities                                                 1,600,620           24,551

MEMBERS’ EQUITY (DEFICIT):
 Capital stock — required (Note 3)                                       1,707,710         1,626,260
 Funds on deposit with U.S Central Federal Credit Union (Notes 4,
  6, and 11)                                                             (1,719,574)            -
 Retained earnings                                                           11,408          11,408

       Total members’ equity (deficit)                                        (456)        1,637,668

TOTAL                                                                $ 1,600,164       $ 1,662,219


See notes to financial statements.




                                                  -2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007
(In thousands)


                                                            2008       2007

REVENUE :
 Investment income                                        $ 57,580   $ 89,259
 Interest — loans to members (Note 5)                        8,689        -

       Total revenue                                       66,269     89,259

EXPENSES (Note 9):
 Personnel services                                           157        144
 Other services                                                49          48
 Rent, communications, and utilities                           10          10
 Employee travel                                                1        -
 Group agent service fee                                        1        -
 Personnel benefits                                            35          33
 Supplies and materials                                         2           1
 Printing and reproduction                                      4           4

       Total operating expenses                               259        240

 Interest — Federal Financing Bank loans (Note 7)           8,691        -
 Interest — liquidity reserve                                  32            53

       Total expenses                                       8,982        293

EXCESS OF REVENUE OVER EXPENSES                           $ 57,287   $ 88,966


See notes to financial statements.




                                                    -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS’ EQUITY (DEFICIT)
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007
(In thousands)


                                          Capital         Funds on      Retained
                                          Stock            Deposit      Earnings          Total

BALANCE — January 1, 2007               $ 1,537,649   $         -       $ 11,408    $ 1,549,057

 Issuance of required capital stock         89,709              -           -              89,709

 Redemption of required capital stock       (1,098)             -           -               (1,098)

 Dividends                                     -                -        (88,966)         (88,966)

 Excess of revenue over expenses               -                -         88,966           88,966

BALANCE — December 31, 2007              1,626,260              -         11,408        1,637,668

 Issuance of required capital stock         81,474              -           -              81,474

 Redemption of required capital stock          (24)             -           -                  (24)

 Reclassification (Notes 4 and 11)             -          (1,719,574)       -           (1,719,574)

 Dividends                                     -                -        (57,287)         (57,287)

 Excess of revenue over expenses               -                -         57,287           57,287

BALANCE — December 31, 2008             $ 1,707,710   $ (1,719,574)     $ 11,408    $        (456)


See notes to financial statements.




                                               -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007
(In thousands)


                                                                              2008             2007

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                                        $      57,287     $ 88,966
 Adjustments to reconcile excess of revenue over expenses to net cash
  provided by operating activities:
  Decrease in accrued interest receivable                                       9,253          (2,536)
  Increase in accounts payable and other liabilities                            2,155               2

       Net cash provided by operating activities                               68,695         86,432

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments — net                                                 (81,289)       (88,607)
 Repayment of loans from members                                             1,172,372            -
 Loans to members                                                           (2,757,850)           -

       Net cash used in investing activities                                (1,666,767)       (88,607)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                                    1,458          1,872
 Issuance of required capital stock                                             81,474         89,709
 Dividends                                                                     (68,695)       (86,456)
 Withdrawal of member deposits                                                  (1,614)        (1,852)
 Redemption of required capital stock                                              (24)        (1,098)
 Repayment of note to the FFB                                               (1,172,372)           -
 Proceeds from issuing notes to the FFB                                      2,757,850            -

       Net cash provided by financing activities                            1,598,077          2,175

NET INCREASE IN CASH                                                                  5          -

CASH — Beginning of year                                                             12              12

CASH — End of year                                                      $            17   $          12

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION — Cash paid during the year for interest                   $       6,570     $          52


See notes to financial statements.




                                                   -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
     Credit Union Central Liquidity Facility Act (the “Act”). CLF is designated as a mixed-ownership
     government corporation under the Government Corporation Control Act. CLF exists within the National
     Credit Union Administration (NCUA) and is managed by the National Credit Union Administration
     Board. CLF became operational on October 1, 1979.

     CLF was created to improve the general financial stability of credit unions by serving as a liquidity
     lender to credit unions experiencing unusual or unexpected liquidity shortfalls. CLF accomplishes its
     purpose by borrowing funds, subject to certain statutory limitations, when a liquidity need arises. CLF is
     a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

     CLF is subject to various Federal laws and regulations. CLF’s operating budget requires Congressional
     approval, and the CLF is not permitted to approve applications for credit, the intent of which is to
     expand credit union portfolios. CLF’s investments are restricted to obligations of the U.S. Government
     and its agencies, deposits in federally insured financial institutions, and shares and deposits in credit
     unions. Borrowing is limited by statute to 12 times the subscribed capital stock and surplus.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting — CLF maintains its accounting records on the accrual basis of accounting.

     Loans and Allowance for Loan Losses — Loans, when made to members, are on a short-term,
     seasonal or protracted need basis. For all liquidity-need loans, CLF secures each loan by a first priority
     security interest in assets of the member credit union. In determining the allowance for loan losses, when
     applicable, CLF evaluates the collectibility of its loans to members through examination of the financial
     condition of the individual borrowing credit unions and the credit union industry in general.

     Funds on Deposit With U.S. Central Federal Credit Union — CLF invests in redeposits and share
     accounts at U.S. Central Federal Credit Union (USC) (Notes 4, 6, and 11). These are nontransferable,
     nonnegotiable instruments that are acquired at face value and carried at cost.

     Fair Value of Financial Instruments — The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

     Cash — The carrying amounts for cash approximate fair value.

     Investments — Fair values of financial instruments with maturities over one year are computed using the
     market rate of interest at year-end. For financial instruments with maturities of one year or less, the
     carrying amounts approximate fair value.

     Loans — For loans advanced to member credit unions, the carrying amounts approximate fair value.



                                                     -6-
     Member Deposits — Funds maintained with the CLF in excess of required capital amounts are recorded
     as member deposits. These deposits are due upon demand, and the carrying amounts approximate the
     fair value.

     FFB Notes Payable — For notes issued to the Federal Financing Bank (FFB), when applicable, the
     carrying amounts approximate fair value.

     Other — Accrued interest receivable, accounts payable, and other liabilities are recorded at book values,
     which approximate the respective fair values.

     Use of Estimates — The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   CAPITAL STOCK

     Membership in CLF is voluntary and is open to all credit unions that subscribe to a required amount of
     capital stock or are members of an Agent member that has subscribed to the capital stock on their behalf.
     There are two types of membership, Regular (natural person credit unions) and Agent (a credit union or
     group of credit unions serving other natural person credit unions). Natural person credit unions may
     borrow from CLF directly as a regular member or indirectly through an Agent member.

     The required capital stock account represents the portion of capital stock subscriptions remitted to CLF
     by member credit unions. Regular members’ required subscription amounts equal one-half of one
     percent of their paid-in and unimpaired capital and surplus. One-half of this amount is required to be
     remitted to CLF. Agent members’ required subscription amounts equal one-half of one percent of the
     paid-in and unimpaired capital and surplus of all of the credit unions served by the Agent member that
     are not Regular members. One-half of that amount is required to be remitted to CLF. In both cases, the
     remainder may be held by the member on call of the CLF Board. The unremitted subscription amounts
     are not reflected in CLF’s financial statements. Subscriptions are adjusted annually to reflect changes in
     the member credit unions’ paid-in and unimpaired capital and surplus. Dividends are declared and paid
     on required capital stock as determined by the Board.

     A member of CLF whose capital stock account constitutes less than five per cent of the total capital
     stock outstanding may withdraw from membership in CLF six months after notifying the NCUA Board
     of its intention to do so. A member whose capital stock account constitutes five per cent or more of the
     total capital stock outstanding may withdraw from membership in CLF 24 months after notifying the
     NCUA Board of its intention.

     The required capital stock is redeemable upon demand by the members. The redemption is not
     mandatory, as defined in FASB Statement No. 150, Accounting for Certain Financial Instruments with
     Characteristics of both Liabilities and Equity; therefore classification in permanent equity is appropriate.




                                                      -7-
     CLF’s capital stock accounts are composed of the following:
                                                                                    2008             2007

       Regular members                                                        $      64,363    $      60,613
       Agent member                                                               1,643,347        1,565,647

       Total                                                                  $ 1,707,710      $ 1,626,260

     The agent member capital stock account balance at December 31, 2008 and 2007, is represented by one
     member, U. S. Central Federal Credit Union (USC), that serves as the Agent Group Representative for
     all other corporate credit unions (Notes 4, 6, and 11).
4.   FUNDS ON DEPOSIT WITH U.S. CENTRAL FEDERAL CREDIT UNION
     During fiscal year 1984, CLF accepted a membership request from USC to be an Agent Group
     Representative on behalf of its corporate credit union members. At December 31, 2008 and 2007,
     $1,643,347,000 and $1,565,647,000, respectively, of the required (paid-in) portion of subscribed capital
     stock was purchased from CLF by USC on behalf of its corporate credit union members. USC has
     26 corporate credit union members as of both December 31, 2008 and 2007.
     As permitted by statute, CLF investments are restricted to obligations of the U. S. Government and its
     agencies, deposits in federally insured financial institutions, and shares and deposits in credit unions.
     CLF had elected to deposit all of its agent member share capital in USC at market rates of interest. At
     December 31, 2008 and 2007, approximately $1,719,574 and $1,638,285,000, respectively, was held on
     deposit in USC accounts at a yield of 2.86% and 5.77%, respectively, as follows (in thousands):
                                                                                    2008             2007

       U.S. Central Federal Credit Union Share Account                        $ 1,712,574      $ 1,632,285
       U.S. Central Federal Credit Union Share Certificates                         7,000            6,000

                                                                              $ 1,719,574      $ 1,638,285

     As a result of the deterioration of USC’s financial condition and the potential uncertainty surrounding
     USC’s ability to immediately repay the funds held on deposit, CLF determined that the economic
     substance of CLF’s funds on deposit with USC had changed. Accordingly, effective December 31, 2008,
     CLF changed its accounting treatment of its funds on deposit with USC and reclassified the funds on
     deposit with USC to a contra-equity presentation (Note 11). CLF has followed the guidance in
     EITF 85-1, Classifying Notes Receivable for Capital Stock, as a basis for presenting its funds on deposit
     with USC as contra-equity. The amounts on deposit represent USC’s capital stock balance with CLF;
     USC, as of December 31, 2008, does not have the intent or ability to repay these funds to CLF within a
     relatively short period of time. As discussed in Note 11, effective August 3, 2009, CLF transferred its
     funds from USC to direct deposit with the U. S. Treasury.
     A Memorandum of Understanding (MOU), effective July 1, 2005, sets forth the understanding of CLF
     and the USC concerning the investments by CLF in USC Share Account and Certificates.
     As provided in the MOU, all investments by CLF in shares of USC will be in either the Share Account
     or Share Certificates. The Share Account is a three-month, fixed rate account that provides for automatic
     re-investment at maturity and funds are available without penalty upon seven days notice. The Share
     Account is only available to CLF. In the event of a liquidation of USC, shares in the account will be
     redeemable in full, prior to the redemption of any other shares of USC.



                                                     -8-
     The Share Certificates are fixed rate, with a maturity fixed upon issuance (three or five years under the
     current MOU). Redemption prior to maturity is permitted, in whole or in part, if the CLF requests early
     redemption and if the USC and the CLF agree on an early redemption value. The Share Certificates are
     neither negotiable nor assignable.

5.   LOANS TO MEMBERS

     The balance of outstanding loans as of December 31, 2008, was $1,585,478,115. Interest rates of these
     loans range from .50 % to 2.25%, and their maturities extend through October 2009. CLF can provide
     members with extensions on their loans. Of the total amount of loans outstanding, $1,510,000,000 was
     due from USC (Note 6). There were no outstanding loans or loan commitments at December 31, 2007.

6.   CONCENTRATION OF CREDIT RISK

     At December 31, 2008, CLF has a concentration of credit risk for its shareholder loan with USC of
     approximately $1,719,574, 000 (Notes 4 and 11). At December 31, 2007, CLF has a concentration of
     credit risk for its funds on deposit with USC of approximately $1,638,285,000 (Note 4), and at
     December 31, 2008 and 2007, for its loans to USC of approximately $1,510,000,000 and $0,
     respectively (Note 5).

7.   BORROWING AUTHORITY

     CLF is authorized by statute to borrow, from any source, an amount not to exceed 12 times its
     subscribed capital stock and surplus. Congress, through the appropriations process, placed a limit on
     gross obligations for 2008 and 2007 at $1.5 billion. However, effective October 1, 2008, under Public
     Law 110-329, Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009,
     Congress took action to remove the annual borrowing limitation of $1.5 billion to enable CLF to borrow
     up to its full statutory authority of approximately $41 billion.

     CLF borrows exclusively from the Federal Financing Bank (FFB). The National Credit Union
     Administration maintains a note purchase agreement with the FFB on behalf of CLF. Under the terms of
     its agreement, CLF borrows from the FFB as needed. Under terms prescribed by the master note
     agreement, CLF executes promissory notes in amounts as necessary and renews them annually. During
     2008, CLF borrowed amounts totaling $2,757,849,774 from FFB under fifty-six separate loan
     agreements, which it, in turn, loaned to member credit unions. The amounts owed to the FFB at
     December 31, 2008 totaled $1,585,478,000.

     At December 31, 2008 and 2007, CLF was in compliance with its borrowing authority.

8.   MEMBER DEPOSITS

     Member deposits represent amounts remitted by members over and above the amount required for
     membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on
     required capital stock.

     Dividends payable represents dividends declared in 2008 and 2007 to be paid in 2009 and 2008,
     respectively.




                                                     -9-
9.   SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

     NCUA provides CLF with information technology and other services and supplies. In addition, NCUA
     pays CLF’s employees’ salaries and benefits as well as CLF’s portion of monthly building operating
     costs. CLF reimburses NCUA on a monthly basis for these items. The total amounts charged by NCUA
     were approximately $259,000 and $240,000 for the years ended December 31, 2008 and 2007,
     respectively. As of December 31, 2008 and 2007, accounts payable and other liabilities include
     approximately $110,000 and $103,000, respectively, due to the NCUA Operating Fund for services
     provided.

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of CLF’s financial instruments at December 31, 2008
     and 2007 are as follows (in thousands):

                                                          2008                               2007
                                              Carrying             Fair          Carrying             Fair
                                              Amount              Value          Amount              Value

       Cash                               $         17       $         17    $         12       $         12
       Funds on deposit with U.S.
        Central Federal Credit Union                -                  -         1,638,285          1,638,473
       Loans to members                       1,585,478          1,585,478             -                  -
       Accrued interest receivable               14,669             14,669          23,922             23,922
       Accounts payable and other
        liabilities                              2,287              2,287             132                132
       Dividends payable                        12,369             12,369          23,777             23,777
       Federal Financing bank notes
        payable                               1,585,478          1,585,478            -                  -
       Member deposits                              486                486            642                642

11. U. S. CENTRAL FEDERAL CREDIT UNION AND RELATED SUBSEQUENT EVENTS

     As described in Note 4, funds on deposit with U.S. Central Federal Credit Union in 2007 were presented
     as an asset in the accompanying balance sheets. Beginning in 2008, CLF began accounting for its agent
     member share capital invested in USC accounts as a shareholder loan at a market rate yielding 2.86%.
     Transactions with equity owners need to be evaluated to determine their substance and the appropriate
     reporting in the financial statements based on the terms of the transaction, including interest rates,
     payment terms and maturities, evidence of ability and intent of repayment, nature and sufficiency of
     collateral.

     CLF took into account the complex interrelationship between its stock ownership arrangement and its
     lending activities during the final months of 2008 and subsequent actions taken in 2009 as detailed
     below. The existing interrelationships include USC’s majority ownership stake in CLF, the
     conservatorship of USC by NCUA, the corresponding National Credit Union Share Insurance Fund
     (NCUSIF) assistance extended to USC, and the CLF liquidity advance made to the NCUSIF which then
     advanced the funds to USC. These factors raise reasonable doubt as to the ability and intent of USC to
     repay CLF’s invested funds upon demand as of December 31, 2008. This in turn led to a determination
     that the amount of the investment (funds held on deposit) should instead be reported within the equity
     section of the balance sheets as a receivable from shareholder.




                                                    - 10 -
In November 2008, the NCUA Board determined that extensions of credit by CLF for other than
liquidity needs (OTLN) are in the national economic interest, and requested concurrence of the Board of
Governors of the Federal Reserve System and of the Secretary of the Treasury for OTLN lending
authority through December 31, 2009. Concurrences were received and CLF began making
OTLN-based loans in January 2009 as described in the next paragraph.

The NCUA Board announced two new initiatives for CLF extensions of credit to credit unions for
system liquidity needs under the OTLN authority. The two initiatives are the Credit Union System
Investment Program (CU SIP), and the Credit Union Homeowners Affordability Relief Program
(CU HARP). Funds for both would come from the Federal Financing Bank (FFB).

CLF made loans and loan commitments through a one-time offering of CU HARP of $164,016,217 and
through the CU SIP of $4,801,984,000 in January 2009. CLF made further loans and loan commitments
through the CU SIP of $2,915,062,000 and $500,000,000 in February 2009 and March 2009,
respectively.

In January 2009, the NCUA Board announced two additional actions which provided immediate
enhancement to the corporate credit union system’s liquidity and capital positions. One of these actions
was a temporary National Credit Union Share Insurance Fund (NCUSIF) guarantee of member shares in
corporate credit unions, which included CLF’s share accounts on deposit with USC. The guarantee
covers all shares through December 31, 2010.

On March 19, 2009, the NCUA Board took additional steps to stabilize the corporate credit union
system when it placed USC and Western Corporate (WesCorp) Federal Credit Union into
conservatorship.

The CLF approved an advance of $10 billion to NCUSIF in order for NCUSIF to make $5 billion in
liquidity stabilization loans to both USC and WesCorp. These advances were made on March 23, 2009,
for a period of 91 days and maturing on June 22, 2009. Subsequently, on June 22, 2009, the advances
were renewed for an additional 182 days maturing on December 21, 2009.

Effective August 3, 2009, CLF transferred its funds from USC to a direct deposit account with the
U.S. Treasury and invested them in a laddered portfolio of short-term U.S. Treasury securities.

                                           ******




                                              - 11 -
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:
We have audited the financial statements of the National Credit Union Administration Central Liquidity
Facility (CLF) as of and for the year ended December 31, 2008, and have issued our report thereon dated
March 15, 2010. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.
Internal Control Over Financial Reporting
In planning and performing our audit, we considered CLF’s internal control over financial reporting as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CLF’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of CLF’s internal
control over financial reporting.
Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial
reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies or material weaknesses have been identified.
However, as described in the accompanying schedule of findings and responses, we identified a certain
deficiency in internal control over financial reporting that we consider to be a material weakness.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned function, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement
of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described in the accompanying schedule of findings and responses to be a
material weakness. See finding 2008-01.
Compliance and Other Matters
As part of obtaining reasonable assurance about whether CLF’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance that are required to be reported under
Government Auditing Standards.
This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Central Liquidity Facility and is not intended to be, and should not be, used by anyone other than these
specified parties.




March 15, 2010




                                                 - 13 -
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

SCHEDULE OF FINDINGS AND RESPONSES
AS OF AND FOR THE YEAR ENDED DECEMBER 31, 2008


FINDING 2008-01

Condition — Effective December 31, 2008, CLF changed its accounting treatment of its funds on deposit
with USC and reclassified the funds on deposit with USC to a contra-equity presentation.

Criteria — CLF has followed the guidance in EITF 85-1, Classifying Notes Receivable for Capital Stock,
as a basis for presenting its funds on deposit with USC as contra-equity. The amounts on deposit
represent USC’s capital stock balance with CLF; USC, as of December 31, 2008, does not have the intent
or ability to repay these funds to CLF within a relatively short period of time.

Effect — This condition results from a deficiency in the design of internal control as CLF did not initially
identify the correct treatment of its funds held on deposit with USC.

Cause — As a result of the deterioration of USC’s financial condition and the potential uncertainty
surrounding USC’s ability to immediately repay the funds held on deposit, CLF determined that the
economic substance of CLF’s funds on deposit with USC had changed.

Monetary Impact — There is no monetary impact associated with this finding.

Recommendation — CLF should review its financial statements for accuracy to ensure the proper
presentation of its funds on deposit.




                                                   - 14 -
National Credit Union
Administration Community
Development Revolving Loan Fund
Financial Statements as of and for the
Years Ended December 31, 2008 and 2007, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS


                                                            Page

INDEPENDENT AUDITORS’ REPORT                                 1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2008 AND 2007:

 Balance Sheets                                              2

 Statements of Operations                                    3

 Statements of Changes in Fund Balance                       4

 Statements of Cash Flows                                    5

 Notes to Financial Statements                              6–9

INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
  BASED UPON THE AUDIT PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                             10–11
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:

We have audited the accompanying balance sheets of National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of December 31, 2008 and 2007, and the related
statements of operations, changes in fund balance, and cash flows for the years then ended. These
financial statements are the responsibility of the management of CDRLF. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of CDRLF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
National Credit Union Administration Community Development Revolving Loan Fund as of
December 31, 2008 and 2007, and the results of its operations and its cash flows for the years then ended
in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated February 17,
2009, on our consideration of CDRLF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements and other
matters. The purpose of that report is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be considered in assessing the results of our
audits.




February 17, 2009
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2008 AND 2007


                                                       2008           2007

ASSETS

CASH AND CASH EQUIVALENTS                          $ 5,610,194    $ 2,931,422

LOANS (Note 4)                                      10,553,512     13,292,065

INTEREST RECEIVABLE                                     25,620         30,154

TOTAL                                              $ 16,189,326   $ 16,253,641


LIABILITIES AND FUND BALANCE

LIABILITIES — Accrued technical assistance         $ 1,267,377    $ 1,308,135

FUND BALANCE:
 Revolving fund capital (Note 3)                    13,435,642     13,435,642
 Accumulated earnings                                1,486,307      1,509,864

       Total fund balance                           14,921,949     14,945,506

TOTAL                                              $ 16,189,326   $ 16,253,641


See notes to financial statements.




                                             -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


                                                       2008             2007

SUPPORT AND REVENUES:
 Interest on cash equivalents                    $     35,186     $ 264,661
 Interest on loans                                    123,329        98,113
 Appropriation revenue                                975,000       940,500

       Total support and revenues                    1,133,515        1,303,274

EXPENSES:
 Technical assistance                                1,157,041        1,436,889
 Loan losses (recoveries)                                   31          (96,992)

       Total expenses                                1,157,072        1,339,897

EXCESS OF EXPENSES OVER SUPPORT AND REVENUES     $     (23,557)   $     (36,623)


See notes to financial statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


                                                          2008           2007

FUND BALANCE — Beginning of year                      $ 14,945,506   $ 14,982,129

 Change in unexpended appropriations:
  Operating appropriations received (Note 3)              975,000        940,500
  Appropriation revenue recognized (Note 3)              (975,000)      (940,500)

 Excess of expenses over support and revenues             (23,557)       (36,623)

FUND BALANCE — End of year                            $ 14,921,949   $ 14,945,506


See notes to financial statements.




                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


                                                                       2008              2007

CASH FLOWS FROM OPERATING ACTIVITIES:

 Excess of expenses over support and revenues                    $     (23,557)    $     (36,623)
 Adjustments to reconcile the excess of (expenses over support
  and revenues) support and revenues over expenses to net cash
  used in operating activities:
  Change in unexpended appropriations                                 (975,000)         (940,500)
  Changes in assets and liabilities:
   Decrease (increase) in interest receivable                            4,534           (12,451)
   (Decrease) increase in accrued technical assistance                 (40,758)          216,717

       Net cash used in operating activities                         (1,034,781)        (772,857)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                           3,088,553          1,853,386
 Loan disbursements                                                   (350,000)        (7,758,587)

       Net cash provided by (used in) investing activities           2,738,553         (5,905,201)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Appropriations received                                               975,000           940,500

       Net cash provided by financing activities                       975,000           940,500

NET INCREASE (DECREASE) IN CASH
 AND CASH EQUIVALENTS                                                2,678,772         (5,737,558)

CASH AND CASH EQUIVALENTS — Beginning of year                        2,931,422         8,668,980

CASH AND CASH EQUIVALENTS — End of year                          $ 5,610,194       $ 2,931,422


See notes to financial statements.




                                                     -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2008 AND 2007


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (CDRLF) was established by an
     act of Congress (Public Law 96-123, November 20, 1979) to stimulate economic development in
     low-income communities. The National Credit Union Administration (NCUA) and the Community
     Services Association (CSA) jointly adopted Part 705 of NCUA Rules and Regulations, governing
     administration of the Fund, on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of CDRLF was transferred to the Department of
     Health and Human Services (HHS). Because HHS never promulgated final regulations governing the
     administration of CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6, 1986)
     transferred CDRLF administration back to NCUA. The NCUA Board adopted amendments to Part 705
     of NCUA Rules and Regulations on September 16, 1987, and began making loans/deposits to
     participating credit unions in 1990.

     The purpose of CDRLF is to stimulate economic activities in the communities served by low-income
     credit unions which will result in increased income, ownership, and employment opportunities for
     low-wealth residents, and other economic growth. The policy of NCUA is to revolve the loans to
     qualifying credit unions as often as practical in order to gain maximum impact on as many participating
     credit unions as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting — CDRLF reports its financial statements on the accrual basis of accounting.

     Cash Equivalents — The Federal Credit Union Act permits CDRLF to make investments in United
     States Government Treasury securities. All investments in 2008 and 2007 were cash equivalents and are
     stated at cost which approximates fair value. Cash equivalents are highly liquid investments with
     original maturities of three months or less.

     Allowance for Loan Losses — CDRLF records a provision for estimated loan losses. Loans considered
     to be uncollectible are charged to the allowance for loan losses. Management continually evaluates the
     adequacy of the allowance for loan losses based upon prevailing circumstances and an assessment of
     collectibility risk of the total loan portfolio. Accrual of interest is discontinued on non-performing loans
     when management believes collectibility is doubtful. At December 31, 2008 and 2007, management
     determined that no allowance for loan losses was necessary.

     Salary and Operating Expenses — NCUA provides certain general and administrative support to the
     CDRLF, including office space, salaries, and certain supplies. The value of these contributed services is
     not charged to CDRLF.




                                                      -6-
     Revenue Recognition — Appropriation revenue is recognized as the related technical assistance
     expense is recognized. Total appropriation revenues will differ from total technical assistance expenses
     because not all technical assistance is funded by appropriations.

     Use of Estimates — The preparation of financial statements in conformity with accounting principles
     generally accepted in the United States of America requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and disclosure of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues and expenses
     during the reporting period. Actual results could differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     CDRLF is subject to various Federal laws and regulations. Assistance, which includes lending and
     technical assistance, is limited by Congress to a total of the $20,515,835 appropriated for CDRLF, plus
     accumulated earnings. Federally chartered and state-chartered credit unions may participate in CDRLF’s
     Community Loan Fund. Loans may only be made to low-income credit unions as defined by NCUA.

     NCUA Rules and Regulations Section 705.7 permit the classification of the loan in the participating
     credit union’s accounting records as either a note payable or a nonmember deposit. As a nonmember
     deposit, an amount not to exceed $250,000 per credit union is insured by the National Credit Union
     Share Insurance Fund (NCUSIF). The covered amount of loans recorded as nonmember deposits by
     participating credit unions insured by the NCUSIF totaled approximately $10,306,351 and $5,790,000 at
     December 31, 2008 and 2007, respectively. Under the CDRLF Loan Program, loans recorded in the
     credit union’s accounting records as notes payable may be collateralized.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued after January 1,
     2002, carry a fixed rate of 1%. Interest and principal are repaid on a semiannual basis beginning six
     months and one year, respectively, after the initial distribution of the loan. The maximum term of each
     loan is five years.

     During the years ended December 31, 2008 and 2007, appropriations for technical assistance in the
     amounts of $975,000 and $940,500, were received for the Federal Government’s fiscal years 2008–2009
     and 2007-2008, respectively. The amounts were designated to be used as operating appropriations for
     technical assistance and no amounts were designated to be used as revolving fund capital.

     For the appropriations received for technical assistance for the Federal Government’s fiscal year
     2008-2009, $975,000 expires on September 30, 2009. Appropriations of $975,000 for technical
     assistance grants are proposed for fiscal 2009–2010.

                                                                                 2008              2007

       Unexpended appropriations:
        Balance — beginning of the year                                     $ 1,141,442       $ 1,141,442
        Operational appropriations received (rescinded)                         975,000           940,500
        Appropriation revenue recognized                                       (975,000)         (940,500)

       Balance of unexpended appropriations — end of year                   $ 1,141,442       $ 1,141,442

       Revolving fund capital                                               $ 13,435,642      $ 13,435,642




                                                     -7-
4.   LOANS

     Loans outstanding at December 31, 2008 and 2007, are scheduled to be repaid during the following
     subsequent years:

                                                                                 2008               2007

       2008                                                                 $     -            $ 2,738,295
       2009                                                                     2,964,967        3,075,324
       2010                                                                     2,825,455        2,775,356
       2011                                                                     2,577,106        2,657,106
       2012                                                                     2,115,984        2,045,984
       2013                                                                         70,000             -

       Loans                                                                $ 10,553,512       $ 13,292,065

5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2008 and 2007, there are no significant concentrations of credit risk in the loan
     portfolio. As discussed in Note 1, CDRLF provides loans to credit unions that serve predominantly
     low-income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in accordance
     with the requirements of Financial Accounting Standards Board Statement No. 107, Disclosures about
     Fair Value of Financial Instruments. The methods and assumptions used in estimating the fair value
     disclosures for financial instruments are as follows:

     Cash and Cash Equivalents — The carrying amounts for cash and cash equivalents approximate fair
     values.

     Interest Receivable and Accrued Technical Assistance — Such items are recorded at book values,
     which approximate the respective fair values.

     Loans — The fair value is estimated by discounting projected future cash flows using current market
     interest rates. For purposes of this calculation, the discount rate used was the Treasury Constant Maturity
     Rate plus two percent (3.04% and 5.26% at December 31, 2008 and 2007, respectively).




                                                     -8-
The carrying amount and the estimated fair value of the CDRLF’s financial instruments are as follows:

                                                           2008                               2007
                                                Carrying          Estimated        Carrying          Estimated
                                                Amount            Fair Value       Amount            Fair Value


  Assets:
   Cash and cash equivalents                $ 5,610,194       $ 5,610,194      $ 2,931,422       $ 2,931,422

   Loans — net                              $ 10,553,512      $ 10,046,414     $ 13,292,065      $ 11,817,193

   Interest receivable                      $     25,620      $      25,620    $     30,154      $      30,154

  Liabilities — accrued technical
   assistance                               $ 1,267,377       $ 1,267,377      $ 1,308,135       $ 1,308,135


It is the intent of CDRLF to hold its loans to maturity. CDRLF anticipates realizing the carrying amount
in full. Fair value is less than the carrying amount because loans are made at less than market interest
rates.

                                           ******




                                                -9-
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
  FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER
  MATTERS BASED UPON THE AUDIT PERFORMED IN ACCORDANCE
  WITH GOVERNMENT AUDITING STANDARDS


To the Inspector General of
National Credit Union Administration:

We have audited the financial statements of the National Credit Union Administration Community
Development Revolving Loan Fund (CDRLF) as of and for the year ended December 31, 2008, and have
issued our report thereon dated February 17, 2009. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered CDRLF’s internal control over financial reporting as
a basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of CDRLF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
CDRLF’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.
Compliance and Other Matters

As part of obtaining reasonable assurance about whether CDRLF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit and, accordingly, we do not express such an opinion. The
results of our tests disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

We noted certain matters that we reported to management of CDRLF in a separate letter dated
February 17, 2009.

This report is intended solely for the information and use of the Inspector General, the Board of the
National Credit Union Administration, and the management of the National Credit Union Administration
Community Development Revolving Loan Fund and is not intended to be and should not be used by
anyone other than these specified parties.




February 17, 2009




                                                  - 11 -
